Audit Report




OIG-08-017
Audit of the United States Mint’s Fiscal Years 2007 and
2006 Financial Statements


December 10, 2007




Office of
Inspector General
Department of the Treasury
      The Mint strives to ensure that their documents are accessible;
to obtain a Section 508 compliant copy of the Mint’s 2007 Annual Report,
                          see the Mint’s website:

                        http://www.usmint.gov/

                               Also see:

       Web Accessibility and Section 508 Compliance policy page
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 10, 2007


            MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                           UNITED STATES MINT

            FROM:                 Michael Fitzgerald /s/
                                  Director, Financial Audits

            SUBJECT:              Audit of the United States Mint’s Fiscal Years 2007 and
                                  2006 Financial Statements


            I am pleased to transmit the attached audited United States Mint (Mint) financial
            statements for fiscal years 2007 and 2006. Under a contract monitored by the
            Office of Inspector General, KPMG LLP, an independent certified public accounting
            firm, performed an audit of the financial statements of the Mint as of
            September 30, 2007 and 2006 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements;
            and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control; and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP’s Report on Internal Control contained one
            significant deficiency related to improvements needed in internal controls related to
            financial accounting and reporting, which was considered a material weakness.
            Further, KPMG LLP found no instances of reportable noncompliance with laws and
            regulations tested.

            KPMG LLP also issued a management letter dated December 4, 2007, discussing
            other matters involving internal control over financial reporting and its operation
            that were identified during the audit but were not required to be included in the
            auditors’ reports. This letter will be transmitted separately.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated December 4, 2007, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Donna Joseph, Audit Manager, Financial Audits
at (202) 927-5784.

Attachment
United States Mint 


      2007 


  Annual Report 

   MISSION STATEMENT 


    The United States Mint applies

   world-class business practices in

  making, selling, and protecting our

     Nation’s coinage and assets.




UNITED STATES MINT VISION 

   Together, we will provide value

    to the American people, ensure

  integrity in our commitments and

    communications, and achieve

      world-class performance.




                   2

                  TABLE OF CONTENTS





                                                         DIRECTOR’S LETTER 4 


                        MESSAGE FROM THE CHIEF FINANCIAL OFFICER 6 


                           MANAGEMENT’S DISCUSSION AND ANALYSIS 7 


                                                           Operational Overview     8

                                                 Financial and Program Analysis    14

                                      Performance Goals, Objectives, and Results   21

                                                  Current and Future Challenges    23

                            Analysis of Systems, Controls, and Legal Compliance    24


                          LIMITATIONS OF THE FINANCIAL STATEMENTS 25 


                                        INDEPENDENT AUDITOR’S REPORT 26


                                                   FINANCIAL STATEMENTS 28 


                                    NOTES TO THE FINANCIAL STATEMENTS 32 


                             REQUIRED SUPPLEMENTARY INFORMATION 48


             INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL 50


                                                     Exhibit I – Material Weakness 52 

                           Exhibit II – Status of Prior Year Reportable Conditions 54

                  Exhibit III – United States Mint’s Response to Auditor’s Report 56


INDEPENDENT AUDITORS’ REPORTS ON COMPLIANCE AND OTHER MATTERS 57





                               3

          MANAGEMENT’S DISCUSSION and ANALYSIS

                                             OVERVIEW

The United States Mint’s financial statements are prepared pursuant to Public Law 104-52. The financial
statements represent the operations of the entire United States Mint, composed of the circulating,
numismatic, bullion, and protection programs. The Management’s Discussion and Analysis section
provides an operational overview and serves to explain the financial statements as well as to explain
program performance. The United States Mint uses a set of key performance indicators to manage
operations. An analysis of the United States Mint’s success in achieving these performance goals is
included in this section.

               MISSION OF THE UNITED STATES MINT
The United States Mint applies world-class business practices in making, selling, and protecting our
Nation’s coinage and assets.

                      ORGANIZATIONAL STRUCTURE




                                                     7                                                    

                            OPERATIONAL OVERVIEW 

Since Fiscal Year (FY) 1996, the United States Mint has operated under the United States Mint Public
Enterprise Fund (PEF). As authorized by Public Law 104-52 (31 U.S.C. § 5136), the PEF eliminates the
need for appropriations to the United States Mint. Proceeds from the sale of circulating coins to the Federal
Reserve Banks and to the public, and the sale of numismatic products and bullion coins to customers
worldwide, are the sources of funding for United States Mint operations. Revenues in excess of costs and
obligations are returned to the United States Treasury General Fund on an annual basis.
MANAGEMENT STRATEGIC PRIORITIES
The United States Mint continually seeks to be a model government agency that applies modern business
practices, resulting in higher yields, lower costs, proper use of technology, efficient production, timely
delivery of products and exceptional customer service. Management’s strategic priorities for FY 2007
include:
    •    Be a model government agency that matches world-class business practices
    •    Value and communicate with the American people
    •    Design, sell, and deliver quality products
    •    Foster a model workplace

  BE A MODEL GOVERNMENT AGENCY THAT MATCHES WORLD-CLASS 

                    BUSINESS PRACTICES 


The United States Mint is committed to continually improving the efficiency of its operations. During FY
2007, the United States Mint focused on five key areas: 1) keeping Sales, General and Administrative
(SG&A) expenses as low as possible while maintaining the quality that the public and customers expect
from our products; 2) reducing our facilities’ costs by completing office consolidation efforts; 3)
transferring many transactional functions in accounting and procurement to a shared-service provider; 4)
continuing business process improvements in Manufacturing and Sales and Marketing to increase the
efficiency of the production process; and 5) reducing the costs of maintaining a strong and efficient
program to protect the assets of the United States Mint and the nation.
Sales, General and Administrative (SG&A) Expenses: These are the overhead costs associated with
operating the United States Mint. In a production-oriented agency like the United States Mint, emphasis is
placed on minimizing SG&A costs while ensuring compliance with statutory requirements. Minimizing
SG&A costs allows us to keep our circulating and numismatic production costs as low as possible, which,
in turn, also allows us to keep our numismatic product prices low. Ultimately, the result is greater transfers
to the Treasury General Fund. In FY 2007, SG&A costs decreased to $174.0 million compared to $177.5
million in FY 2006.

Facilities Management: The United States Mint continues to review the utilization of space at the
agency’s Headquarters in Washington, DC. To maximize efficiency, the United States Mint subleased
approximately 182,000 square feet of Headquarters office space in Washington, DC. This resulted in
leasing cost savings of approximately $8.4 million in FY 2007, up from $7.9 million in FY 2006.
Shared Services: Under the Office of Management and Budget’s Line of Business Initiative, federal
agencies are expected to either provide certain shared services as a Center of Excellence, or consider
migrating to a designated Center of Excellence. In FY 2007, the United States Mint transferred many of its
finance and accounting functions to the Administrative Resource Center (ARC), along with the operation of
its Enterprise Resource Planning (ERP) System, procurement, and e-travel functions. The United States
Mint performed system cutover on October 1, 2006, and officially went “live” October 2, 2006. During
this first year of operation, the United States Mint developed and conducted six customized workshops that
were intended to provide United States Mint employees with customized, hands-on, and process-specific
training as a supplement to the training provided by the ARC. The six workshops included; Counting
Inventory, Advance Cycle Counting, Cost Management, Outside Processing, Period End Manufacturing
Activities, and Financial Data Overview, and were delivered at all sites. Participants found the training to
be a useful refresher as well as a source of new skills and knowledge.


                                                      8

Improved Business Processes: In FY 2007, the United States Mint completed training for many managers
in Manufacturing on “Lean Manufacturing” processes and in Sales and Marketing on effective project
management skills. This continual process improvement in Manufacturing and Sales and Marketing will
serve to eliminate unnecessary or redundant practices and should lead to substantial improvements in plant
productivity and reduction in controllable operating costs. Several significant achievements for FY 2007
include:
•	   Overcame significant issues with cutting edge technologies used to produce Presidential $1 Coins.
     These issues include improving the coin’s luster, using edge lettering on a circulating coin, and
     modifying product packaging with automated robotics. We resolved our edgeless coin quality issue,
     by implementing safeguards and investing in capital to redesign the production line.
•	   Increased coin design and master tooling output from an average of 70 coins per year to a record-
     setting 120 for FY 2007, demonstrating an increase of 70% by infusing and leveraging digital
     technology.
•	   Developed an inventory management pilot program jointly with the Federal Reserve Board (FRB) to
     more effectively meet the demands of the public and create a more stable circulating coin production
     system.
Next year Manufacturing intends to focus on two areas for Lean improvement – the Die Shop at the United
States Mint at Philadelphia and Headquarters Field process for entering new information in Oracle.
Management is committed to implementing more efficient and cost effective procedures throughout all
areas of the United States Mint.
Protection of Assets: The United States Mint continues to use a strategic approach to reduce its
Protection costs. The United States Mint plans to use automation to replace certain functions currently
performed by its police officers. For instance, the installation of electronic systems can verify identity and
scan for weapons and explosives. This procedure upon entry to and exit from each facility can eliminate a
process currently conducted by police officers. Once the electronic equipment is fully implemented, the
United States Mint will be able to reduce positions, and improve the effectiveness of the scanning process.

Value and Communicate with the American People

During FY 2007, the United States Mint continued to improve communications with its stakeholders,
customers, and the American public. This included continuing the innovative and critically acclaimed
United States Mint “History In Pocket” (H.I.P.) Pocket Change™ educational website and conducting a
number of open collector forums around the nation.
United States Mint H.I.P Pocket Change Website: Educational content was added to the United States
Mint H.I.P. Pocket Change website. The interactive Time Machine cartoon was updated quarterly with
trips to the Suffrage (1917), Great Depression (1935) and World War II (1943) eras with an emphasis on
coins. The online newsletter, Making Cents, was updated quarterly, as was a “State Quarter Day in the
Classroom” page with the release of each 50 State Quarters® coin. The “Coin of the Month” section
provided a historical perspective of a different coin each month. The United States Mint H.I.P. Pocket
Change website had over 3.8 million visits during the year, an increase of 24% over FY 2006.
Collector Forums: In FY 2007, the United States Mint hosted five collector forums at which collectors
and the general public could view the newest products and pose questions and ideas related to coin
programs to United States Mint officials. The forums were held the evening before each State Quarter
launch ceremony in South Dakota, Washington, and Wyoming, and at the Spring and Summer American
Numismatic Association conventions in Charlotte and Milwaukee.
American Customer Satisfaction Index (ACSI): The United States Mint was among the highest in
government for high standard of customer service (87%) measured by the ACSI. One of the critical
elements in this survey was measuring overall order fulfillment to the FRB and to the public. The United
States Mint also participates in the quarterly ACSI E-Government Customer Satisfaction Survey. The
scores of 80 in the e-commerce/transactions category and 79 in the portals/main sites category outpaced the
average government score of 76.8 and 72.6, respectively. The United States Mint’s e-commerce
transactions scored the same as the overall private sector e-commerce score.


                                                      9

Coin Users Group Forums: In accordance with the Presidential $1 Coin Act of 2005, (Public Law 109­
145), the United States is honoring the nation’s Presidents by issuing a series of circulating $1 coins,
featuring the image of each President in the order in which he served. The Act requires the Board of
Governors of the Federal Reserve System and the Secretary of the Treasury to take steps to ensure that an
adequate supply of $1 coins is available for commerce and collectors. There are further requirements to
consult with coin users groups to secure ideas for the efficient distribution and circulation of $1 coins, as
well as all other circulating coins.

To this end, several coin users group forums have been hosted jointly by the United States Mint and the
FRB. Two such forums were held in FY 2007. The first forum, on November 8, 2006, was specifically for
representatives from the retail industry. The United States Mint and the FRB hosted another coin users
group forum on July 12, 2007, with representatives from all stakeholder groups. These forums have been
beneficial in identifying barriers to robust circulation of coins and ideas to overcome or mitigate those
barriers. As a result, actions and operational changes have been revised or established, thus streamlining
the ordering and distribution processes as well as facilitating more effective communication and
information channels.

Design, sell, and deliver quality products

The United States Mint continually strives to provide the highest quality products along with services that
are responsive to our customers’ needs and desires. At the same time, our goal is to provide excellent
customer service that meets the best in business standards; FY 2007 was no exception.

FY 2007 New Products and Programs
The Presidential $1 Coin Program

The United States is honoring our nation’s Presidents by issuing $1 circulating coins featuring their images
in the order that they served, beginning in calendar year 2007 with Presidents Washington, Adams,
Jefferson and Madison. The United States Mint will mint and issue four Presidential $1 Coins per year,
and each will have a reverse design featuring a striking rendition of the Statue of Liberty. The composition
of the new Presidential $1 Coins is identical to that of the Golden Dollar featuring Sacagawea.

The Presidential $1 Coin Act seeks to revitalize the design of United States coins and return circulating
coinage to its position as an object of aesthetic beauty in its own right. Accordingly, the new Presidential
$1 Coins feature larger, more dramatic artwork, as well as edge-incused inscriptions of the year of
issuance, “E Pluribus Unum,” “In God We Trust,” and the mint mark.

Modeled after the United States Mint’s successful 50 State Quarters Program, the Presidential $1 Coin
Program features rotating designs of United States Presidents. The George Washington Presidential $1
Coin marked the first of three Presidential $1 Coins released in FY 2007, followed by John Adams and
Thomas Jefferson, with James Madison’s release scheduled in the calendar year on November 15. For the
three Presidential $1 Coins released in FY 2007, the Federal Reserve ordered 673 million coins for
circulation. Public awareness of the new Presidential $1 Coins has increased from a pre-introduction level
of 18% to 62%. The unveiling of all four designs for the 2007 Presidential $1 Coins was held on
November 20, 2006, at the Smithsonian National Portrait Gallery in Washington, DC. The media event
took place in front of the original Gilbert Stuart painting of George Washington. All of the media events
listed, as well as ongoing media outreach and a local media tour, led to more than 1 billion audience
impressions for the Presidential $1 Coin Program in FY 2007.




                                                      10

George Washington Presidential $1 Coin
First President, 1789-1797
On February 15, 2007, the United States Mint released into circulation the new George Washington
Presidential $1 Coin. The United States Mint celebrated the debut of the George Washington $1 Coin with
a special Presidential $1 Coin Exchange in New York City featuring a brigade of armored cars delivering
the coins to Grand Central Terminal.

John Adams Presidential $1 Coin
Second President, 1797-1801
On May 17, 2007, the United States Mint released into circulation the John Adams Presidential $1 Coin.
On May 22, 2007, Quincy, Massachusetts, the hometown of John Adams, hosted a ceremony to
commemorate the first time that John Adams has been featured on a U.S. coin.

Thomas Jefferson Presidential $1 Coin
Third President, 1801-1809
On August 16, 2007, the United States Mint released into circulation the Thomas Jefferson Presidential $1
Coin. The Thomas Jefferson $1 Coin launch and coin exchange was held at the Jefferson Memorial in
Washington, DC, on August 15, 2007. The launch featured United States Mint Director Edmund C. Moy’s
release of the results of a national survey commissioned by the United States Mint to test citizens’
knowledge of America’s Presidents.

James Madison Presidential $1 Coin
Fourth President, 1809-1817
The James Madison Presidential $1 Coin is scheduled for release in FY 2008 on November 15, 2007.

The First Spouse Gold Coin Program

The United States is honoring our nation’s first spouses by issuing one-half ounce $10 gold coins featuring
their images, in the order that they served as first spouse, beginning in 2007 with Martha Washington,
Abigail Adams, Thomas Jefferson’s Liberty and Dolley Madison. The Presidential $1 Coin Act of 2005
authorized the First Spouse, 24-Karat, Gold Coins as collectible counterparts of the circulating Presidential
$1 Coins. The United States Mint also produced bronze medals bearing the likeness of the First Spouse
Gold Coins.

The First Spouse Gold Coins mark the first time the United States Mint has featured women on a
consecutive series of coins. The obverse of these coins feature portraits of the nation’s first spouses, their
names, and the dates and order of their years as first spouse. Each coin has a unique reverse design
featuring an image emblematic of that spouse’s life and work. The Program has proven to be extremely
popular, with both proof and uncirculated versions of each First Spouse Gold Coin selling out on the day of
release, a total of 40,000 coins per first spouse design.

When a President served without a first spouse, such as Thomas Jefferson, a gold coin will be issued
bearing an obverse image emblematic of Liberty as depicted on a circulating coin of that era, and bearing a
reverse image emblematic of themes of that President.

Martha Washington First Spouse $10 Gold Coin
First Lady, 1789-1797
The Martha Washington First Spouse $10 Gold Coin went on sale June 19, 2007. The obverse bears an
image of Martha Washington, and the reverse design depicts the future first lady sewing a button onto her
husband’s uniform jacket. During the Revolutionary War, her concern for the colonial soldiers earned her
their lasting respect and admiration.

Abigail Adams First Spouse $10 Gold Coin
First Lady, 1797-1801
The Abigail Adams First Spouse $10 Gold Coin went on sale June 19, 2007. The obverse bears an image
of Abigail Adams, and the reverse design depicts her writing a letter, with the words “Remember the

                                                     11

Ladies” as she wrote to her husband, John, as he was with the other Founding Fathers creating the
framework for the new Republic.

Thomas Jefferson Liberty First Spouse $10 Gold Coin
President 1801-1809
The Thomas Jefferson Liberty First Spouse $10 Gold Coin went on sale August 30, 2007. The obverse
image emblematic of Liberty appeared on the Draped Bust Half-Cent coin from 1800 to 1808. The reverse
design depicts Jefferson’s final resting place located on the grounds of his Monticello estate.

Dolley Madison First Spouse $10 Gold Coin
First Lady, 1809-1817
The fourth in the series of First Spouse Gold Coins is scheduled to be released in FY 2008 on November
29, 2007.

The 50 State Quarters Program:
(a 10-year celebration of our national heritage)
A significant portion of United States Mint operations is dedicated to the 50 State Quarters Program, which
was introduced in 1999 to commemorate each of the 50 states over a ten-year period. Five new
commemorative quarter-dollar coins are minted and issued each year. The reverse of each quarter-dollar
coin celebrates one of the 50 states with a design honoring the unique history, traditions and symbols of
the state. The quarter-dollars are released in the order in which the states ratified the United States
Constitution or were admitted into the Union. In FY 2007, the United States Mint issued quarter-dollars
commemorating South Dakota, Montana, Washington, Idaho and Wyoming.

FY 2007 50 State Quarters Coin Releases
South Dakota: The first quarter released in FY 2007 honors the State of South Dakota, the “Mount
Rushmore State,” and is the 40th coin in the United States Mint’s 50 State Quarters Program. The South
Dakota quarter features an image of the State bird, a Chinese ring-necked pheasant, in flight above a
depiction of the Mount Rushmore National Monument. The design is bordered by heads of wheat. The
coin’s design also bears the inscriptions “South Dakota,” “1889,” and “2006.”

Montana: The second quarter released in FY 2007 honors Montana, and is the 41st coin in the United
States Mint’s 50 State Quarters Program. The reverse of Montana’s quarter features a bison skull depicted
above the diverse Montana landscape with the inscription “Big Sky Country.” The coin also bears the
inscriptions “Montana,” “1889,” and “2007.”

Washington: The third quarter released in FY 2007 honors Washington State, and is the 42nd coin in the
United States Mint’s 50 State Quarters Program. The reverse of Washington’s quarter features a king
salmon breaching the water in front of majestic Mount Rainier. The coin bears the inscriptions “The
Evergreen State,” “Washington,” “1889,” and “2007.”

Idaho: The fourth commemorative quarter-dollar coin released in FY 2007 honors Idaho, and is the 43rd
coin in the United States Mint’s 50 State Quarters Program. The reverse of Idaho’s quarter features the
Peregrine Falcon imposing its presence above an outline of the State of Idaho. The coin bears the
inscriptions “Esto Perpetua” (the State motto which means, “May it be Forever”), “Idaho,” “1890,” and
“2007.”

Wyoming: The fifth and final quarter released in FY 2007 honors Wyoming, and is the 44th coin in the
United States Mint’s 50 State Quarters Program. The reverse of Wyoming’s quarter features a bucking
horse and rider with the inscriptions “The Equality State,” “Wyoming,” “1890,” and “2007.”




                                                    12

FY 2007 Commemorative Coins

2007 Jamestown 400th Anniversary Commemorative Coin Program:

Four hundred years after the settlement of Jamestown, the United States is honoring the founding of
Jamestown with two commemorative coins from the United States Mint. The Jamestown 400th
Anniversary Commemorative Coin Program includes two commemorative coins – a silver dollar, minted at
the United States Mint at Philadelphia and a $5 gold coin, minted at the United States Mint at West Point –
available in both proof and uncirculated conditions.

The obverse of the silver dollar, “Three Faces of Diversity,” represents the three cultures that came together
at Jamestown, while the reverse features an image of the three ships which brought the first settlers to
Jamestown in 1607. The obverse of the $5 gold coin depicts an image of Captain John Smith greeting a
Native American carrying a bag of corn. The reverse features a current rendering of Jamestown Memorial
Church, the only remaining original structure in Jamestown.

Authorized by Public Law 108-289, the 2007 Jamestown 400th Anniversary Commemorative Coins are
limited to maximum mintages across all product options of 500,000 for the silver dollar and 100,000 for the
$5 gold coin. Surcharges from the program are authorized to support the 400th anniversary programs, such
as promoting understanding, continuing preservation, and improving the infrastructure of Jamestown,
among other commemorative events. These programs are conducted by, and the surcharges are authorized
to be paid to the Jamestown-Yorktown Foundation of the Commonwealth of Virginia, the Secretary of the
Interior, and the Association for Preservation of Virginia Antiquities.

2007 Little Rock Central High School Desegregation 50th Anniversary Program:

The second United States Mint commemorative coin program of FY 2007 commemorates a major event in
the Civil Rights movement. Public Law 109-146 directs the Secretary of the Treasury to mint up to
500,000 silver dollars in commemoration of the 50th anniversary of the desegregation events at Little Rock
Central High School in Little Rock, Arkansas, during the 1957-58 school year. The coin is available in
proof and uncirculated condition, minted at the United States Mint at Philadelphia.

The obverse of this coin depicts students, walking to school, accompanied by an armed United States
soldier. The design includes nine stars, symbolic of the “Little Rock Nine,” who bravely faced the violence
and hatred of a segregated society. The reverse depicts the image of the school circa 1957.

Surcharges collected through the sale of these coins are authorized to be paid to the Secretary of the Interior
for the protection, preservation, and interpretation of resources and stories associated with the Little Rock
Central High School National Historic Site. These include site improvements at Little Rock Central High
School National Historic Site, development of interpretive and education programs and historic
preservation projects, and the establishment of cooperative agreements to preserve or restore the historic
character of the Park Street and Daisy L. Gatson Bates Drive corridors adjacent to the site.

Foster a Model Workplace
Equal Employment Opportunity (EEO)/Diversity: The United States Mint continues ongoing efforts to
develop and retain an optimal diverse workforce and workplace culture by utilizing human resources
flexibilities when possible, and by addressing conflicts at the lowest level. In FY 2007, a number of EEO
events were sponsored emphasizing key areas relevant to EEO and specific diversity initiatives. In FY
2007, the EEO office administered the No Fear Act and Prevention of Sexual Harassment (POSH) training
for 100% of the workforce. The positive outcomes from these efforts include, enhanced awareness of
diversity initiatives, and a better understanding of the EEO complaint process, and other conflict resolution
resources available to the workforce.
Safety: Our vision is to implement a sustainable safety process that demonstrates continuous improvement
towards zero injuries. The primary method used to drive continuous improvement is the United States

                                                      13

Mint’s safety reporting system which tracks progress at the facility and bureau levels. The metrics are
designed to meet, and in most cases exceed, the President’s SHARE (Safety Health And Return to
Employment) Initiative. After reducing the Lost Time Accident (LTA) rate for six consecutive years, the
United States Mint suffered a slight setback, and the end rate for FY 2007 was 0.88 compared to 0.79 for
FY 2006. Based on the metrics, the United States Mint initiated a program targeted at the safety culture
within the Mint Police force. There were efforts to revitalize the safety culture change at the United States
Mint at Philadelphia, with the intent of migrating successes to the other United States Mint facilities. The
United States Mint also audited the employee interface and employee perception of safety programs at the
various locations, creating a list of action items for improving program guidance to the field. The United
States Mint is diligently committed to obtaining zero injuries throughout the entire workforce.



                 FINANCIAL AND PROGRAM ANALYSIS
OPERATING RESULTS

The following section provides a summary of the operating results for the United States Mint’s various
programs and circulating coinage.

Total Earned Revenue and Other Financing Sources (Seigniorage)

In FY 2007, the United States Mint’s earned revenue increased to                                            Total Earned Revenue and Other
$1,603.1 million plus other financing sources (seigniorage) of                                                     Financing Sources
$1,032.3 million totaling $2,635.4 million. This compares with FY                                                     2,635.4
2006 amounts of $1,641.1 million for earned revenue plus $682.4                                       2,500                                  2,323.5
million for other financing sources, totaling $2,323.5 million.                         ($ Millions
                                                                                                      2,000
                                                                                                                     1,032.3
                                                                                                                                             682.4

                                                                                                      1,500
                                                                                                      1,000
                                                                                                                     1,603.1                1,641.1
                                                                                                        500
                                                                                                        -
                                                                                                                     FY 2007                FY 2006
                                                                                                            Earned Revenue     Other Financing Sources


Circulating Coinage Shipped To the Federal Reserve Banks

The United States Mint mints and issues the circulating coins used to conduct commercial transactions
across the Nation. Coins are shipped to the FRB as they are needed to replenish inventory and fulfill
commercial demand. The FRB pays the United States Mint face value for the coins when they are shipped.

Circulating Earned Revenue and Other Financing Sources
                                                                                    Circulating Earned Revenue and Other
Earned revenue from circulating coinage equals the costs                                      Financing Sources
(metal, manufacturing, and transportation) incurred to make                       2,000         1,727.8
and distribute the coin, while “other financing sources” (also
                                                                                  1,500                                                    1,271.9
                                                                    ($ Millions




known as seigniorage) represents the difference between the                                                     1,005.2
cost to make the coin and the face value received from the                        1,000                                                     668.5
FRB. Circulating earned revenue from coins shipped to the
FRB of $722.6 million plus the circulating other financing                         500                           722.6                      603.4
sources of $1,005.2 million increased to $1,727.8 million in                        -
FY 2007. This compares with $603.4 million in earned                                                           FY 2007                    FY 2006
revenue plus $668.5 million from other financing sources,                                             Other Financing Sources
totaling $1,271.9 million in FY 2006.                                                                 Earned Revenue (Gross Circulating Cost)



                                                     14
CIRCULATING EARNED REVENUE & OTHER FINANCING SOURCES (OFS) (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2007

                                                                                              Mutilated &
                                    One-cent   5-cent    Dime     Quarter     Half   Dollar         Other      Total
Revenue & OFS                          $78.1    $64.4   $224.8     $677.8     $0.0   $682.7          $0.0   $1,727.8
Cost of Goods Sold                     118.2    122.9     80.2      228.1      0.0     55.3           0.0      604.7
Selling, General & Administrative        0.0      0.0     10.9       34.0      0.0     48.6           0.0       93.5
Other Costs and Expenses                 0.0      0.0      1.0        3.2      0.0      4.6          15.6       24.4
Other Financing Sources               -$40.1   -$58.5   $132.7     $412.5     $0.0   $574.2        -$15.6   $1,005.2


CIRCULATING EARNED REVENUE & OTHER FINANCING SOURCES (OFS) (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2006

                                                                                              Mutilated &
                                    One-cent   5-cent    Dime     Quarter     Half   Dollar         Other      Total
Revenue & OFS                          $85.0    $72.6   $301.9     $751.1     $1.0   $60.3           $0.0   $1,271.9
Cost of Goods Sold                     103.3     87.1     87.6      203.5      0.4     2.4            0.0      484.3
Selling, General & Administrative        0.0      0.1     24.5       63.3      0.0     6.7            0.0       94.6
Other Costs and Expenses                 0.0      0.0      2.3        5.9      0.0     0.6           15.7       24.5
Other Financing Sources               -$18.3   -$14.6   $187.5     $478.4     $0.6   $50.6         -$15.7     $668.5


Circulating Coin Costs

FY 2007 was a particularly challenging year given significant increases in the prices of nickel, zinc and
copper--the three primary components of our circulating coinage. High metal prices continued to have a
significant effect on production costs, causing the one-cent and 5-cent denominations to cost more than
their face values for the second fiscal year in a row.

UNIT COST OF PRODUCING AND DISTRIBUTING COINS
FOR THE YEAR ENDED SEPTEMBER 30, 2007

                                           One-cent      5-cent       Dime     Quarter            Half       Dollar
  Cost of Goods Sold                        $0.0165     $0.0949     $0.0357    $0.0841        $0.0000       $0.0835
  General & Administrative                   0.0000      0.0000      0.0048     0.0125         0.0000        0.0705
  Distribution to FRB                        0.0002      0.0004      0.0004     0.0012         0.0000        0.0033
  Total Expenses                            $0.0167     $0.0953     $0.0409    $0.0978        $0.0000       $0.1573


UNIT COST OF PRODUCING AND DISTRIBUTING COINS
FOR THE YEAR ENDED SEPTEMBER 30, 2006

                                           One-cent      5-cent       Dime     Quarter            Half       Dollar
  Cost of Goods Sold                        $0.0119     $0.0592     $0.0294    $0.0681        $0.1729       $0.0495
  General & Administrative                   0.0000      0.0001      0.0081     0.0211         0.0000        0.1092
  Distribution to FRB                        0.0002      0.0004      0.0003     0.0015         0.0020        0.0008
  Total Expenses                            $0.0121     $0.0597     $0.0378    $0.0907        $0.1749       $0.1595


Numismatic Products Sold to the Public

The United States Mint also produces and sells a variety of numismatic products directly to the public, and
precious metal (gold, silver, and platinum) investment grade bullion coins to pre-qualified Authorized
Purchasers for resale to the public. Total numismatic revenue plus other financing sources, and numismatic
revenue plus other financing sources as a proportion of total United States Mint revenue, has been growing
over the past three fiscal years. In FY 2007, numismatic revenue plus other financing sources represented
34 percent of total United States Mint revenue.




                                                        15

American Eagle Bullion Coins:
American Eagle bullion coins are typically purchased by              American Eagle Bullion Cost
investors seeking a simple, tangible means to own and                 and Net Program Revenue
invest in precious metals. These coins are made in gold
(22K), silver, and platinum. American Eagle silver bullion         400                        368.9
                                                                                                    9.2
sales decreased to 7.8 million fine troy ounces (FTOs) and




                                                               ($ Millions)
                                                                               238.6
                                                                   300
revenue decreased to $110.2 million in FY 2007, compared           200
                                                                                      2.8
                                                                                              359.7
with 11.2 million FTOs sold and $130.5 million in revenue          100         235.8
in FY 2006. American Eagle gold bullion sales decreased to         -
164 thousand FTOs in FY 2007, and revenue decreased to                      FY 2007         FY 2006
$110.3 million, compared with 395 thousand FTOs and                       Net Program Revenue
$222.9 million in revenue in FY 2006. American Eagle                      Gross Numismatic Cost
platinum bullion sales increased to 14.6 thousand ounces, 

while revenue increased to $18.1 million in FY 2007, 

compared to 14.5 thousand ounces, and $15.5 million in revenue in FY 2006. In FY 2007, total American

Eagle bullion revenues decreased to $238.6 million compared with $368.9 million in FY 2006. 


American Eagle Proof, Uncirculated and 20th
Anniversary Sets:                                                                           American Eagle Proof,
American Eagle Proof coins are made in gold (22K), silver,                              Uncirculated, and Anniversary
                                                                                       Cost and Net Program Revenue
and platinum. American Eagle Gold Proof coin sales                     250       220.1
increased to 182.9 thousand units, and revenue increased to                      29.6
                                                                       200


                                                                              ($ Millions)
$65.8 million in FY 2007. This compares with 166.6                                            117.5
                                                                       150
thousand units sold and $55.2 million in revenue in FY                                               17.5
                                                                       100       190.5
2006. American Eagle Silver Proof sales decreased to 767.0
                                                                         50                    100.0
thousand units sold with $22.60 million in revenue. This
compares to 818.7 thousand units sold in 2006 with $22.6               -
                                                                               FY 2007       FY 2006
million in revenue. American Eagle Platinum Proof sales
                                                                                Net Program Revenue
decreased to 26.2 thousand units and $19.0 million in                           Gross Numismatic Cost
revenue in FY 2007. This compares with 32.8 thousand
units sold and $22.2 million in revenue in FY 2006. American Eagle Proof net program revenues decreased
to $12.9 million in FY 2007 from $16.4 million in FY 2006. The American Eagle Uncirculated coins were
made available late in 2006 with shipping and revenues not realized until 2007. The American Eagle
Uncirculated Gold sold 113.2 thousand units with $36.2 million in revenue, the American Eagle
Uncirculated Silver sold 623.0 thousand units with $13.1 million in revenue and the American Eagle
Uncirculated Platinum sold 21.8 thousand units with $13.7 million in revenue. The American Eagle
Uncirculated net program revenue was $7.5 million. The 20th Anniversary Sets net program revenues for
FY 2007 were $9.1 million on revenues of $49.7 million which compares to the net program revenues of
$1.1 million and revenues of $17.5 million in 2006.
                                                                                                            American Buffalo Gold Bullion Cost
American Buffalo Gold Bullion Coins:                                                                           and Net Program Revenue

FY 2007 marked the second year for the American Buffalo Gold
                                                                                                            200
Bullion Coin. This is the first 24-Karat gold coin produced by the                                                                      167.7
                                                                                                            150                                 3.0
                                                                                             ($ Millions)




United States Mint. In accordance with Title II of Public Law 109­                                                      117.5
                                                                                                                                1.7
145 (Presidential $1 Coin Act of 2005), as codified at 31 U.S.C. §                                          100
                                                                                                                                        164.7
5112(a)(11) & (q), the coin is produced only in a one-ounce weight                                              50      115.8

with a $50 denomination. In FY 2007, the American Buffalo Gold                                              -
Bullion Coin sales decreased to 171 thousand ounces compared to                                                       FY 2007         FY 2006
266.5 thousand ounces in FY 2006. The American Buffalo Gold                                                          Net Program Revenue
Bullion net program revenue for FY 2007 was $1.7 million                                                             Gross Numismatic Cost

compared to $3.0 million in net program revenue in FY 2006.




                                                   16

American Buffalo Gold Proof Coins:
FY 2007 also marked the second year of the American
                                                                                            American Buffalo Gold Proof Net
Buffalo 24-Karat Gold Proof Coin. This collectible product                                        Program Revenue
was sold in one-ounce units and generated sales of 73.9
thousand units and $59.9 million in earned revenue in FY
2007 compared to 208.7 thousand units and $166.7 million                                    200
                                                                                                                                     166.7




                                                                             ($ Millions)
in earned revenue in FY 2006. Net program revenues for                                      150                                              15.9

FY 2007 were $5.6 million compared to $15.9 million for                                     100                 59.9                 150.8
FY 2006. 
                                                                                      50                     5.6
                                                                                                                54.3
                                                                                            -
                                                                                                           FY 2007             FY 2006
                                                                                                         Net Program Revenue
                                                                                                         Gross Numismatic Cost




Commemorative Coins:
Commemorative coins revenue (less surcharges paid to recipient organizations) increased to $45.6 million
in FY 2007 from $24.9 million in FY 2006. Congress authorized the issuance of the Jamestown 400th
Anniversary silver dollar and $5 gold coin and the Little Rock Central High School Desegregation 50th
Anniversary Commemorative Coins, which were released in January 2007 and May 2007, respectively.
The Jamestown 400th Anniversary Commemorative Coin Program generated $19.1 million in revenue and
$5.0 million in surcharges for the designated beneficiary organizations. The Little Rock Central High
School Desegregation 50th Anniversary Commemorative Coin Program generated $3.9 million in revenue
and $1.5 million in surcharges for the designated recipient organization.
In 2006, Congress authorized the issuance of the San Francisco Old Mint Commemorative Coin Program.
Because this program was signed into law late in the fiscal year, coins were not shipped, and total revenues
did not accrue until FY 2007. Net program revenue for the San Francisco Old Mint Commemorative Coin
Program in FY 2007 was $3.4 million, and surcharges collected for the designated recipient totaled $4.7
million. Surcharges paid to recipient organizations totaled $13.6 million in FY 2007.



Recurring Programs:
Recurring programs include Proof Sets, Silver Proof Sets,                       Recurring Coin Products Cost
Uncirculated Sets, 50 State Quarters Proof Sets, 50 State                        and Net Program Revenue
                                                                                                        189.8
Quarters Silver Proof Sets, and other miscellaneous                          200                                8.3          181.4
products. Revenue from recurring programs increased to                                                                        35.1
                                                              ($ Millions)




                                                                             150
$189.8 million in FY 2007 from $181.4 million in FY
2006. Net program revenues decreased to $8.3 million in                      100                        181.5
                                                                                                                             146.3
FY 2007 compared with $35.1 million in FY 2006. The                              50
recurring net revenue ratio decreased to 4.4 percent in FY
2007 from 19.3 percent in FY 2006.
                                                                                                      FY 2007            FY 2006
                                                                                                     Net Program Revenue
                                                                                                     Gross Numismatic Cost




                                                     17

Numismatic Sales of Circulating Coinage:
With the introduction of the 50 States Quarters Program,             Numismatic Sales of Circulating
the Golden Dollar and the 5-cent coin redesigns, there has                       Coins
been an increase in collector demand for circulating
                                                                                   50
quality coins that have not yet been circulated. These
                                                                                   40       36.1




                                                                 ($ Millions)
coins are typically sold by the United States Mint in bags                                                     24.4
                                                                                   30
and rolls. Sales in this category represent the face value                                  27.1
                                                                                   20                          13.9
of the coins sold. All additional revenue above the face
                                                                                   10
value, or above the production cost, whichever is higher,                                    9                 10.5
                                                                                   -
and any additional expenses incurred in selling these
                                                                                          FY 2007            FY 2006
products, are included in the Numismatic Recurring
Programs in the previous section.                              Earned Revenue                Other Financing Sources

Total numismatic earned revenue from the sale of
circulating coinage plus other financing sources increased to $36.1 million in FY 2007 as compared with
$24.4 million in FY 2006. As in the case of circulating coins sold to the FRB, the portion of the other
financing sources from the sale of numismatic circulating coinage transferred to the Treasury General Fund
represents off-budget receipts.

Numismatic Cost, Earned Revenue, and Net Program
Revenue:                                                                             Numismatic Cost, Earned Revenue,
Earned revenue for numismatic sales to the public (net of                               and Net Program Revenue
                                                                                1,100                          1,027.1
surcharges paid to recipient organizations) decreased to
                                                                                1,000                           85.5
$871.5 million FY 2007. This compares with earned revenue                                    871.5
                                                                                  900
of $1,027.1 million for numismatic sales to the public in FY         ($ Millions              53.3
                                                                                  800
2006. The total net program revenue on the sale of
                                                                                  700                           941.6
numismatic products decreased to $53.3 million in FY 2007                                    818.2
                                                                                  600
compared with $85.5 million in FY 2006.
                                                                                  500
The following charts show total numismatic revenue and net                        400
program revenue for FY 2007 compared with FY 2006 results,                                  FY 2007                   FY 2006
and show costs and net program revenue by major product                                          Net Program Revenue
                                                                                                 Gross Numismatic Cost
lines.




                                                    18

NUMISMATIC NET PROGRAM REVENUE (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2007

                                                         American
                                                        Eagle Proof,    American     American
                                          American      Uncirculated     Buffalo    Buffalo Gold
                                            Eagle         & 20th          Gold        Proof &
                                           Bullion      Anniversary      Bullion    Uncirculated Commemoratives     Recurring     Total
Revenue (less surcharges & commissions)       $238.6          $220.1       $117.5           $59.9         $45.6        $189.8    $871.5
Cost of Goods Sold                             234.7           170.3         115.2           50.2           35.7        133.4    $739.5
Selling, General & Administrative                 1.0            19.5           0.6           4.0            4.5         46.9     $76.5
Other Cost                                        0.1             0.7           0.0           0.1            0.1          1.2      $2.2
Net Program Revenue                              $2.8          $29.6           $1.7          $5.6           $5.3         $8.3     $53.3

Net Program Revenue Ratio                       1.2%           13.4%         1.4%         9.3%             11.6%        4.4%       6.1%


NUMISMATIC NET PROGRAM REVENUE (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2006

                                                         American
                                                        Eagle Proof,    American
                                          American      Uncirculated     Buffalo     American
                                            Eagle         & 20th          Gold      Buffalo Gold
                                           Bullion      Anniversary      Bullion       Proof      Commemoratives    Recurring      Total
Revenue (less surcharges & commissions)       $368.9          $117.5       $167.7          $166.7          $24.9       $181.4   $1,027.1
Cost of Goods Sold                             358.7             83.8        164.2          136.9            14.6       100.4     $858.6
Selling, General & Administrative                 0.9            15.7           0.5          13.5             5.4        44.8      $80.8
Other Cost                                        0.1             0.5           0.0           0.4             0.1         1.1       $2.2
Net Program Revenue                              $9.2          $17.5           $3.0         $15.9            $4.8       $35.1      $85.5

Net Program Revenue Ratio                       2.5%           14.9%         1.8%         9.5%             19.3%       19.3%       8.3%




PROTECTION OPERATIONS

The United States Mint Office of Protection maintains a professional police force with the tools and
resources needed to respond to the changing threats of today’s environment. The Office of Protection is
committed to recruiting and retaining the highest caliber law enforcement personnel and to maintaining a
competitive compensation structure.
The Office of Protection secures approximately $184.5 billion in market value of the nation’s gold and
silver reserves and protects the United States Mint’s assets while safeguarding our employees against
potential threats at our facilities across the country. In FY 2007, the Protection Program had a net cost of
$37.7 million, a decrease from a net cost of $42.8 million in FY 2006.

CAPITAL INVESTMENTS

Each year, the United States Mint commits funds for capital projects to maintain, upgrade or acquire
equipment, physical structures, physical security systems, and information technology systems. Funds
obligated for capital projects totaled approximately $27.9 million in FY 2007. This included approximately
$23.3 million for manufacturing projects, $2.0 million for security improvement projects, and $2.6 million
for information technology projects. The United States Mint’s capital projects are focused on improving
processes, developing new coin design and production capabilities, and expanding information handling.
These investments are planned to reduce costs, shorten the overall time from product concept to production,
and achieve greater flexibility to respond to market demands.




                                                                    19

TOTAL UNITED STATES MINT NET PROGRAM REVENUES AND OTHER FINANCING
SOURCES

                                             Consolidated Net Program Revenue and
                                                    Other Financing Sources
                                     1,200
                                                 1,047.9
                                     1,000

                                      800                   725.1                    764.0

                      ($ Millions)
                                                                                                      650.2
                                      600

                                      400

                                      200

                                       -
                                                  2007      2006                     2005             2004




The net program revenues plus other financing sources increased to $1,047.9 million in FY 2007 from
$725.1 million in FY 2006.

TRANSFERS TO THE TREASURY GENERAL FUND

The PEF permits the United States Mint to operate in a                                       Transfers to the Treasury General Fund
business-like manner, allowing the United States Mint                              1,000
flexibility to adjust spending to adapt to ever-changing                            900         825
                                                                                                                         775
economic and business conditions. As required by                                    800                       750
                                                                    ($ Millions)




                                                                                                                                      665
Public Law 104-52, the United States Mint transfers all                             700
profits to the Treasury General Fund, retaining only the                            600

amount required by the PEF to support United States                                 500

Mint operations and programs.                                                       400
                                                                                    300
                                                              200
In FY 2007, the United States Mint transferred $825
                                                              100
million to the Treasury General Fund. This total
                                                              -
included $782 million in net operating results from the               2007         2006        2005                                   2004
sale of circulating coins either to the FRB or through
numismatic channels (off-budget), and $43 million from profits on numismatic collectible and bullion sales
(on-budget). In comparison, $750 million ($666 million off-budget and $84 million on-budget) was
transferred to the Treasury General Fund in FY 2006.

The amounts transferred to Treasury are directly related to the sales of United States Mint products. The
total face value of circulating coins shipped to the Federal Reserve or sold through numismatic channels
increased from the previous year. In a stable cost environment, an increase in circulating shipments would
normally result in a larger source of funds available for transfer.

Supplemental Information per Public Law 107-201

Public Law 107-201 (July 23, 2002) authorized the United States Mint to purchase silver on the open
market to mint coins when the silver in the Strategic and Critical Materials Stockpile was depleted. The
law requires an annual reporting of the amount of silver purchased on the open market by fiscal year. The
following represents purchases for FY 2007 and FY 2006:




                                                              20

                           Quantity (FTO)                                 Market Value

FY 2007                    15,400,340.3630                              $202,677,630.61
FY 2006                    17,036,321.0010                              $178,226,186.41



PERFORMANCE GOALS, OBJECTIVES AND RESULTS
One of the most effective means of determining how well an organization is performing is through the use
of performance measures. As mandated by the Government Performance & Results Act (GPRA) of 1993,
agencies are to identify critical activities, devise pertinent performance measures, and report on these
activities to the President and Congress.
The United States Mint’s strategic plan focuses on improving efficiency, ensuring integrity, valuing our
employees, and operating at the utmost performance level expected of a federal agency. To assess our
efforts, the United States Mint identified key performance measures that cut across the entire organization.
Tied to these performance measures are high-level targets coupled with initiatives enabling us to reach our
goals. These measures are presented as bureau-wide strategic performance measures, which establish a
single, critical set of measures we use to monitor and to manage our operations effectively. The following
table identifies our performance measures, targets and year-end achievements.
BUDGET PERFORMANCE MEASURES

The following table shows the targets and results for performance measures presented as part of the FY
2007 Performance Budget.
                                          FY 2007 Result         FY 2007 Target        FY 2006 Result
Conversion cost per 1,000 coin
                                                 $7.23                  $7.27                  $7.55
equivalents
Cycle-time                                     61 days                 75 days                72 days
Order fulfillment                                98%                    96%                    95%
Protection cost per square foot                 $31.75                 $32.99                 $32.49
Total losses                                 Not Available             $10,000                  $0

Analysis of Budget Performance Measures

Conversion cost per 1,000 coin equivalents
The United States Mint’s costs vary by product, and
the product mix has been variable over time. This              Conversion cost per 1,000 coin
makes it difficult to compare operating results from                       equivalents
year to year. The coin equivalent (CE) calculation
                                                           $10
converts the production output to a common
denominator based on the circulating quarter.               $9                                    $7.93
                                                            $8     $7.23     $7.55      $7.42
Production costs, excluding metal and fabrication,
are then divided by this standardized production            $7
level, thus resulting in “conversion costs per 1,000        $6
coin equivalents.” This allows comparison of                $5
performance over time by negating the effects of                  FY 2007 FY 2006 FY 2005 FY 2004
changes in the product mix. FY 2007 Conversion
costs were $7.23 per 1000 CEs, below the target of
$7.27. This is an improvement of four percent from the FY 2006 result of $7.55. The FY 2007 target was
based on a production forecast of 26,669 million CEs. However, during FY 2007, production was 23,964
million CEs (a ten percent reduction from the forecast). Coin equivalent production volumes were lower
than expected due to reduced demand for bullion products and for the new Presidential $1 coins. While CE
production was lower than expected, the target was met as conversion costs for that level of production


                                                     21

were reduced by a slightly larger percent due to improved efficiencies and increased productivity through
the use of technology and automation.
In order to continue improving results, several projects are in progress or in the planning stages. These
projects would expand the use of digital design and engraving to reduce some process costs, and automate
material movement in the production of dollar coins.

Cycle-time
The cycle time measure assesses the time it takes
material to flow through the United States Mint’s                            Cycle-time
processes from raw material to order fulfillment. The           100
United States Mint’s objective is to minimize the                                                  85
amount of time required to process raw materials into            80             72        69
                                                                        61
finished goods by eliminating non-value added steps              60




                                                         Days
from the processes and reducing the amount of raw                40
material in inventory. As of September 2007, cycle-
time was 61 days, a decrease of 11 days as of                    20
September 2006. The targeted cycle-time was 75
days. This improvement is a result of lower raw                       FY 2007 FY 2006 FY 2005 FY 2004
materials and finished goods inventories along with a
higher average daily production rate.
The United States Mint will continue to promote "Lean Manufacturing" and automation projects to reduce
raw material and work-in-progress inventories to shorten cycle time. A penny blank storage and retrieval
system is planned similar to the coil handling system already in place.

Order fulfillment                                                    Order fulfillment
Order fulfillment is a measure that tracks the overall           98%       95%      94%
                                                       100%
order fulfillment for the circulating coins shipped to
the Federal Reserve Bank and the numismatic coins        80%
sold to the public. Both components are then             60%
weighted by their respective share of the total
                                                         40%
revenues and other financing sources. The United
States Mint order fulfillment performance at 98% for     20%
                                                                                              N/A
FY 2007 surpassed the target of 96%. This improves        0%
upon the FY 2006 result of 95% by 3%. This                     FY 2007 FY 2006 FY 2005 FY 2004
measure indexes the order fulfillment rates of two
business lines, circulating and numismatic, by their
respective revenues. This performance means that 98% of revenues are from products delivered on-time.
The United States Mint will continue to foster a close relationship with the Federal Reserve Bank to ensure
that the order fulfillment rate for circulating coins remains high. Customer service to numismatic
customers remains a priority, and the United States Mint personnel will continue to closely monitor
numismatic order fulfillment.

Protection cost per square foot                                 Protection cost per square foot
Protection cost per square foot consists of the
Office of Protection’s total operating cost divided       $40               $32.49    $32.43      $32.51
                                                                  $31.75
by the area of usable space. Usable space is              $30
defined as 90% of the total square footage. The
                                                          $20
Office of Protection uses the cost per square foot to
provide a measurement of efficiency over time.            $10
The square footage of usable space at the United         $
States Mint is a stable figure and will only change
                                                                 FY 2007 FY 2006 FY 2005 FY 2004
significantly with major events such as the addition
or removal of a facility. Protection cost per square
foot is $31.75 for FY 2007, lower than the target of $32.99 by four percent. This result is an improvement


                                                    22
of two percent from the FY 2006 result of $32.49. The United States Mint Office of Protection made
efforts to curtail some travel expenses, and actual expenses related to a planned buyout ended up lower than
expected.
The United States Mint Office of Protection will continue efforts to contain costs, while maintaining proper
operations to fulfill protection responsibilities. Projects to automate entry and exit at facilities are expected
to reduce the need for staffing costs associated with these functions.

Total losses
The United States Mint performs its protection
function by minimizing vulnerability to theft and                              Total losses
                                                              $4,000
preventing unauthorized access to critical assets.                                                    $3,109
Total Losses measures the dollar amount of losses             $3,000
incurred because of the realization of threats against
the United States Mint. Total losses measures losses          $2,000
                                                                                            $1,135
within three categories representing cases that have
                                                              $1,000
been investigated and closed:                                            N/A        $0
                                                                $0
1.	 Financial Losses: intentional monetary losses,
                                                                     FY 2007 FY 2006 FY 2005 FY 2004
    thefts or fraud from metal reserves, produced
    coinage, retail sales and other administrative
    losses.
2.	 Cost of Intrusions: the cost of repair or recovery from an intentional intrusion into United States Mint
    systems and facilities either electronically or physically.
3.	 Productivity Losses: the cost of intentional damage or destruction to production capabilities, including
    related costs for continuity of operations.

The United States Mint FY 2007 result is not available at this time. At the end of FY 2007, the United
States Mint initiated a review to examine the policies and procedures that serve as the basis for this
measure. The FY 2007 result for the Total Losses measure is pending the outcome of this review. The
review is expected to be completed during FY 2008 and the results for FY 2007 will be published in
subsequent budget reports and in the FY 2008 annual report.



                 CURRENT AND FUTURE CHALLENGES
The United States Mint is being challenged by a wide range of changes in the world around us—changes in
how people purchase goods and services, rapidly rising metal costs, and whether people collect coins as a
hobby or investment. While the United States Mint is not in a position to control these changes in the
outside world, we are in a position to control how we prepare for them and how we respond to them. We
have chosen to take a proactive approach in addressing them—working closely with our stakeholders,
customers and vendors to safeguard, to the greatest extent practicable, our ability to continue to effectively
fulfill the United States Mint’s mission to the American public.
KEY CHALLENGES

Promoting Robust Circulation of $1 Coins
As of September 30, 2007, 673 million Presidential $1 Coins have been ordered by the Federal Reserve
Bank. While the total for the first-year orders of the Presidential $1 Coins could reach over 900 million, the
coins have not yet entered into general circulation and continue to be seen as a collectible. The United
States Mint is currently finalizing plans to educate more vendors, transit agencies, retailers and citizens on
the utility of $1 coins to promote general circulation. In addition, we need to continue efforts to enable the
most efficient and effective distribution chain from the United States Mint and the Federal Reserve Bank
into the hands of consumers.




                                                       23

most efficient and effective distribution chain from the United States Mint and the Federal Reserve Bank
into the hands of consumers.

Rising Prices of Metal Leading to Higher Production Costs
Steady and dramatic increases in the prices of zinc, copper, and nickel have raised the cost of producing
circulating coinage. This continues to cause the one-cent and 5-cent coins to cost more than their face
values on a per-unit basis.

The Most Popular Numismatic Coin Program Is Coming to an End
In recent years, there has been an increased demand for numismatic products – due in large part to the
overwhelming popularity of the 50 State Quarters products. However, this numismatic product line will
cease when the 50 State Quarters Program ends in December 2008.


      ANALYSIS OF SYSTEMS, CONTROLS AND LEGAL 

                    COMPLIANCE 

INTERNAL CONTROLS PROGRAM

Management Assurances

The United States Mint’s management team is responsible for establishing and maintaining effective
internal controls, which includes safeguarding of assets and compliance with applicable laws and
regulations. Therefore, the United States Mint has made a conscientious effort during FY 2007 to meet the
internal control requirements of the Federal Managers’ Financial Integrity Act (FMFIA), the Federal
Financial Management Improvement Act (FFMIA), Office of Management and Budget (OMB) Circular A­
123, and the Government Performance and Results Act (GPRA) of 1993.

The systems of management controls for the United States Mint are designed to ensure that:
    a) Programs achieve their intended results;
    b) Resources are used consistent with overall mission;
    c) Programs and resources are free from waste, fraud, and mismanagement;
    d) Laws and regulations are followed;
    e) Controls are sufficient to minimize any improper or erroneous payments;
    f) Performance information is reliable;
    g) Systems security is in substantial compliance with all relevant requirements;
    h) Continuity of operations planning in critical areas is sufficient to reduce risk to reasonable levels;
         and
    i) Financial management systems are in compliance with Federal financial systems standards.

The United States Mint has assessed its internal controls and, for all its responsibilities, we hereby provide
a qualified statement of assurance that the above listed management control objectives, taken as a whole,
were achieved with the exception of one material weakness. Details of the exception are provided in the
next section. Specifically, this assurance is provided relative to Sections 2 and 4 of FMFIA. We further
assure that our financial management systems are in substantial compliance with the requirements imposed
by the Federal Financial Management Improvement Act (FFMIA). These assurances are as of September
30, 2007.

The United States Mint's management is responsible for establishing and maintaining effective internal
control over financial reporting, which includes safeguarding of assets and compliance with applicable laws
and regulations. The United States Mint conducted an assessment of the effectiveness of the United States
Mint's internal control over financial reporting for the period ending June 30, 2007. This assessment was
conducted in accordance with OMB Circular A-123, “Management's Responsibility for Internal Control.”
The FY 2007 assessment was conducted by obtaining and documenting an understanding of the policies,
processes and procedures in effect, determining the significant control mechanisms and performing detailed


                                                      24

tests of transactions to ascertain the effectiveness of the identified controls. Each control tested was
considered in light of the associated and/or mitigating controls that were in effect. The overall result was
considered and conclusions obtained as to the overall effectiveness of the controls in place. Based on the
results of this evaluation, the United States Mint has determined that a material weakness has resulted as of
June 30, 2007, for FY 2007.

MATERIAL WEAKNESS

The United States Mint assessment team determined that the material weakness had a root cause centering
around changes to the organization and processes resulting from the conversion of its automated financial
system from an in-house managed system to a new system under an arrangement with a third party service
provider. This significant change in systems has required the United States Mint to redesign and
implement new and/or revised controls and reporting processes that focused on two primary areas: financial
reporting and inventory management. While the majority of the reporting aspects were resolved by fiscal
year end, the internal control over financial operations was weakened for a significant part of the year.
Internal control over inventory management was weakened during the fiscal year while new procedures
were developed and personnel trained in their proper application.

The United States Mint is committed to maintaining effective systems of internal control; therefore,
subsequent to the determination that a material weakness existed, the United States Mint took aggressive
steps to implement corrective actions to resolve the material weakness. The United States Mint has made
significant progress toward making the necessary changes and has developed a corrective action plan to
address enhancements needed to resolve the noted weakness. As a result of these efforts, the United States
Mint has implemented corrective actions for all except three specific components as of September 30,
2007. It is management’s position that the remaining issues will be resolved within a reasonable timeframe
and a vigilant oversight will ensure a proper system of internal controls will be in operation in the near
future.

LEGAL COMPLIANCE

The United States Mint was found to be in full compliance with FFMIA at the transaction level.



      LIMITATIONS OF THE FINANCIAL STATEMENTS

The principal financial statements have been prepared to report the financial position and results of
operations of the United States Mint, pursuant to the requirements of 31 U.S.C. § 3515(b). The statements
have been prepared from the books and records of the United States Mint in accordance with generally
accepted accounting principles for Federal entities and the formats prescribed by OMB. The statements are
in addition to the financial reports used to monitor and control budgetary resources which are prepared
from the same books and records. The statements should be read with the realization that they are for a
component of the United States Government.




                                                     25

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                  Independent Auditors’ Report


Inspector General 

United States Department of the Treasury


Director 

United States Mint: 


We have audited the accompanying balance sheets of the United States Mint as of September 30,
2007 and 2006, and the related statements of net cost, changes in net position, and combined
statements of budgetary resources (hereinafter referred to as “financial statements”) for the years
then ended. These financial statements are the responsibility of the United States Mint’s
management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to
obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of the United States Mint’s internal control
over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements, assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the United States Mint as of September 30, 2007 and 2006, and its net
costs, changes in net position, and budgetary resources for the years then ended in conformity
with U.S. generally accepted accounting principles.

As disclosed in Note 1 to the financial statements, the United States Mint changed its method of
reporting the reconciliation of budgetary resources obligated to the net cost of operations in fiscal
year 2007.




                                                                26 

                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
The information in Management’s Discussion and Analysis and Required Supplementary
Information is not a required part of the financial statements, but is supplementary information
required by U.S. generally accepted accounting principles and OMB Circular No. A-136,
Financial Reporting Requirements. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation
of this information. However, we did not audit this information and, accordingly, we express no
opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated
December 4, 2007, on our consideration of the United States Mint’s internal control over
financial reporting and our tests of its compliance with certain provisions of laws, regulations,
contracts, and other matters. The purpose of those reports is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not
to provide an opinion on the internal control over financial reporting or on compliance. Those
reports are an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in assessing the results of our audits.




December 4, 2007




                                                27 

                                         DEPARTMENT OF THE TREASURY

                                             UNITED STATES MINT

                                               BALANCE SHEETS

                                                 (In Thousands)


                                                                                As of September 30,
                                                                             2007                2006
ASSETS
    Intragovernmental:
        Fund Balance with Treasury (Note 3)                                     $255,731           $225,917
        Accounts Receivable, Net (Note 4)                                          5,870                  0
        Advances and Prepayments (Note 5)                                          4,452              3,948
    Total Intragovernmental Assets                                               266,053            229,865

        Custodial Gold and Silver Reserves (Note 6)                           10,493,740          10,493,740
        Accounts Receivable, Net (Note 4)                                         80,279              28,120
        Inventory and Related Property (Notes 7 & 20)                            418,072             253,329
        Supplies                                                                  14,635              15,318
        Property, Plant and Equipment, Net (Note 8)                              218,014             233,394
        Advances and Prepayments (Note 5)                                          1,805               1,859
     Total Non-Intragovernmental Assets                                       11,226,545          11,025,760
Total Assets (Notes 2 and 14)                                                $11,492,598         $11,255,625

         Heritage Assets (Note 9)

LIABILITIES
    Intragovernmental:
        Accounts Payable                                                           $509                 $1,183
        Accrued Workers' Compensation and Benefits                                 7,117                 6,541
        Unearned Revenues                                                            156                     0
    Total Intra-governmental Liabilities                                           7,782                 7,724

         Custodial Liability to Treasury (Note 6)                             10,493,740         10,493,740
         Accounts Payable                                                         60,096             52,436
         Surcharges payable (Note 3)                                               6,526              8,361
         Accrued Payroll and Benefits                                             15,353             14,923
         Other Actuarial Liabilities                                              29,704             31,482
         Unearned Revenues                                                         1,891              3,362
     Total Non-Intragovernmental Liabilities                                  10,607,310         10,604,304
Total Liabilities (Notes 10 and 14)                                          $10,615,092        $10,612,028

         Commitments and Contingencies (Notes 12 & 13)

NET POSITION
   Cumulative Results of Operations - Earmarked Funds (Note 14)                  877,506                643,597

Total Liabilities and Net Position                                           $11,492,598         $11,255,625




The accompanying notes are an integral part of these financial statements.




                                                             28                                                   

                                                DEPARTMENT OF THE TREASURY
                                                    UNITED STATES MINT
                                                  STATEMENTS OF NET COST
                                                        (In Thousands)

                                                                             For The Years Ended September 30,
                                                                                  2007                2006
NUMISMATIC PRODUCTION AND SALES
     Gross Cost                                                                     $818,184             $941,691
     Less Earned Revenue                                                            (871,472)          (1,027,161)
Net Program Revenue                                                                  (53,288)             (85,470)

NUMISMATIC PRODUCTION AND SALES OF CIRCULATING COINS
     Gross Cost                                                                         9,011              10,459
     Less Earned Revenue                                                               (9,011)            (10,459)
Net Program Revenue                                                                         -                   -

CIRCULATING PRODUCTION AND SALES
     Gross Cost                                                                       722,582             603,352
     Less Earned Revenue (Note 16)                                                   (722,582)           (603,352)
Net Program Revenue                                                                         -                   -
Net Revenue Before Protection of Assets                                               (53,288)            (85,470)

PROTECTION OF ASSETS
     Protection Costs                                                                  37,683              42,886
     Less Earned Revenue                                                                   (0)                (59)
Net Cost of Protection of Assets                                                       37,683              42,827
Net Revenue from Operations (Notes 14 and 15)                                        ($15,605)           ($42,643)




The accompanying notes are an integral part of these financial statements.




                                                                    29

                                        DEPARTMENT OF THE TREASURY

                                            UNITED STATES MINT

                                    STATEMENTS OF CHANGES IN NET POSITION

                                                (In Thousands)


                                                                             For The Years Ended September 30,
                                                                                  2007                2006
CUMULATIVE RESULTS OF OPERATIONS

NET POSITION, Beginning of Year - Earmarked Funds (Note 14)                          $643,597            $657,524

FINANCING SOURCES:

   Transfers to the Treasury General Fund On-Budget                                   (43,000)           (84,000)
   Transfers to the Treasury General Fund Off-Budget                                 (782,000)          (666,000)
   Other Financing Sources (Seigniorage) (Note 16)                                  1,032,284            682,480
   Imputed Financing Sources (Note 11)                                                 11,020             10,950
Total Financing Sources                                                               218,304            (56,570)
Net Revenue from Operations                                                            15,605             42,643
Net Position, End of Year - Earmarked Funds (Note 14)                                $877,506           $643,597




The accompanying notes are an integral part of these financial statements.




                                                                30

                                      DEPARTMENT OF THE TREASURY

                                          UNITED STATES MINT

                                  STATEMENTS OF BUDGETARY RESOURCES

                                              (In Thousands)


                                                                             For The Years Ended September 30,
                                                                                  2007                2006
Budgetary Resources
Unobligated balance, brought forward, October 1                                      $40,549            $112,870
Recoveries of prior-year unpaid obligations                                           15,389                   -
Budget authority
   Spending authority from offsetting collections
    Earned
      Collected                                                                     1,863,258           1,650,475
      Change in receivable from federal sources                                         5,870                 (58)
    Change in unfilled customer orders
      Advance received                                                                 2,047                    -
      Without advance from federal sources                                                30                    -
   Anticipated for Rest of Year, Without Advance                                            -                   -
   Subtotal                                                                         1,871,205           1,650,417
Permanently not available                                                            (43,000)            (84,000)
     Total Budgetary Resources                                                     $1,884,143          $1,679,287

Status of Budgetary Resources
Obligations incurred
   Reimbursable (Note 17)                                                          $1,831,055          $1,638,738
Unobligated balances
   Apportioned                                                                        53,088               40,549
     Total Status of Budgetary Resources                                          $1,884,143           $1,679,287

Change in Obligated Balances
Obligated balance, net
   Unpaid obligations, brought forward, October 1                                   $179,561            $160,848
   Less: Uncollected customer payments from federal
    sources, brought forward, October 1                                                    -                 (58)
   Total unpaid obligated balance, net                                               179,561             160,790

Obligations incurred, net (Note 17)                                                 1,831,055           1,638,738
Gross outlays                                                                       1,786,683           1,619,945
Recoveries of prior-year unpaid obligations, actual                                    15,389
Change in uncollected customer payments from
 federal sources                                                                        5,900                 (58)
Obligated balance, net, end of the period
   Unpaid obligations                                                                208,543             179,561
   Uncollected customer payments from federal sources                                 (5,900)                  -
   Total unpaid obligated balance, net, end of period                                202,643             179,561

Net Outlays
   Net outlays
      Gross outlays                                                                 1,786,683           1,619,945
      Collections                                                                  (1,865,305)         (1,650,475)
     Total Outlays                                                                   ($78,622)           ($30,530)

The accompanying notes are an integral part of these financial statements.



                                                             31

                                       DEPARTMENT OF THE TREASURY
                                            UNITED STATES MINT
                                    NOTES TO THE FINANCIAL STATEMENTS
                                   FOR THE YEAR ENDED SEPTEMBER 30, 2007


(Dollars are in thousands except Fine Troy Ounce information)

Note 1 Summary of Significant Accounting Policies

Reporting Entity
Established in 1792, the United States Mint is a bureau of the Department of the Treasury (Treasury). The mission of the
United States Mint is to manufacture coins for general circulation, to manufacture and sell numismatic products for the
benefit of the Federal Government and various recipient organizations, and to protect certain federal assets in its custody.
Numismatic products include medals; proof coins; uncirculated coins; platinum, gold, and silver bullion coins; and
commemorative coins. Custodial assets consist of the United States’ gold and silver metal reserves. These custodial
reserves are often referred to as “deep storage” and “working stock,” and are reported on the Balance Sheet.

Manufacture of numismatic products is financed principally through sales to the public. Manufacture of circulating
coinage is financed through sales of coins at face value to the Federal Reserve System. Activities related to protection of
federal custodial assets are funded by revenues and other financing sources received by the United States Mint Public
Enterprise Fund (PEF).

Pursuant to Public Law 104-52, Treasury Postal Service and General Government Appropriation Bill for FY 1996, as
codified at 31 U.S.C § 5136, the PEF was established to account for all revenues and expenses related to production and
sale of numismatic products and circulating coinage and protection activities. Expenses accounted for in this fund include
the cost of metals and fabrication and transportation of metals used in circulating and numismatic coin production and
costs of transporting circulating coinage between the United States Mint production facilities and Federal Reserve Banks
(FRB). Metals used in circulating and numismatic coin production include nickel, copper, zinc, manganese, gold, silver,
and platinum, as well as smaller quantities of other base metals. Other costs/expenses accounted for in this fund include
costs related to research and development and purchases of equipment, as well as capital improvements and protection
costs. P.L. 104-52 states that any amount in the PEF that is determined to be in excess of the amount required by the PEF
shall be transferred to the Treasury General Fund.

Treasury’s Bullion Fund (Bullion Fund) is used to account for United States gold and silver reserves. A separate
Schedule of Custodial Deep Storage Gold and Silver Reserves has been prepared for the deep storage portion of the
Treasury gold and silver reserves for which the United States Mint acts as custodian.

Basis of Accounting and Presentation
The accompanying Financial Statements were prepared in conformity with the reporting format promulgated by the Office
of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements and in accordance with
accounting standards issued by the Federal Accounting Standards Advisory Board (FASAB). The United States Mint’s
financial statements have been prepared to report the financial position, net cost of operations, changes in net position, and
budgetary resources, as required by P.L. 104-52. For the fiscal year ended September 30, 2007, OMB changed the
required reconciliation of net costs to budgetary resources from the separately presented Statement of Financing to a note
disclosure (see note 21).

Management uses estimates and assumptions in preparing financial statements. Those estimates and assumptions affect
the reported amounts of assets and liabilities, the disclosure of contingent assets and liabilities, and the reported revenues
and expenses. Actual results could differ from those estimates. Accounts subject to estimates include depreciation,
imputed costs, payroll and benefits, accrued worker’s compensation, allowance for uncollectible accounts receivable, and
unemployment benefits.




                                                             32
The accompanying financial statements have been prepared on the accrual basis of accounting. Under the accrual method,
revenues and other financing sources are recognized when earned and expenses are recognized when a liability is
incurred, without regard to receipt or payment of cash. All intra-United States Mint transactions and balances have been
eliminated.

Earned Revenues and Other Financing Source (Seigniorage)
Circulating Sales: P.L. 104-52, establishing the PEF, provides for the sale of circulating coinage at face value to the
Federal Reserve Banks. Revenue from the sale of circulating coins is recognized when the product is shipped to the FRB.

Revenue from the sale of circulating coins to the FRB and numismatic sales of circulating coins is limited to the recovery
of the cost of manufacturing those coins. Coins are sold at face value. The difference between the face value of
circulating coins sold and the total cost of producing those coins is considered an “other financing source” in accordance
with FASAB guidelines.

Other Financing Source (Seigniorage) is the face value of newly minted coins less the cost of production (which includes
the cost of the metal, manufacturing, and transportation). Seigniorage is the profit from coining money. Seigniorage adds
to the government’s cash balance, but unlike the payment of taxes or other receipts, it does not involve a transfer of
financial assets from the public. Instead, it arises from the exercise of the Government’s sovereign power to create money
and the public’s desire to hold financial assets in the form of coins. Therefore, the President’s Budget excludes
seigniorage from receipts and treats it as a means of financing. The President’s Budget also treats profits resulting from
the sale of gold as a means of financing because the value of gold is determined by its value as a monetary asset rather
than as a commodity. Other financing source (seigniorage) is recognized when coins are shipped to the FRB in return for
deposits to the United States Mint’s PEF.

Numismatic Sales: Revenue from numismatic sales to the public is recognized when products are shipped to customers.
Prices for numismatic products are based on the product cost plus a reasonable net program revenue. Bullion products are
priced based on the market price of the precious metals plus a premium to cover manufacturing costs.

Rental Revenue: The United States Mint receives rental revenue from floor space that is subleased in two United States
Mint facilities located in Washington, D.C. The space is subleased to other federal government entities. For the purpose
of presentation, rental revenue is combined with numismatic sales on the statement of net cost.

Protection Revenue: This is derived from revenue received for protection services provided to other federal agencies.

Fund Balance with Treasury
All cash is maintained at the Treasury. Fund Balance with Treasury is the aggregate amount of the United States Mint’s
cash accounts with the U.S. Government’s central accounts from which the United States Mint is authorized to make
expenditures and pay liabilities. It is an asset because it represents the United States Mint’s claim to the U.S. Government
resources.

Accounts Receivable
Accounts receivable are amounts due to the United States Mint from the public and other federal agencies. An allowance
for uncollectible customer accounts receivable from the public is established for all accounts that are more than 180 days
past due. However, the United States Mint will continue collection action on those accounts that are more than 180 days
past due as specified by the Debt Collection Improvement Act of 1996.

Inventories and Related Property
Inventories of circulating and numismatic coinage that do not contain either gold or silver are valued at the lower of cost
or market. Costs of the metal and fabrication components of the inventories are determined using a weighted average
inventory methodology. Conversion costs (i.e., the cost to convert the fabricated blank into a finished coin) are valued
using a standard cost methodology.

Numismatic coinage containing Treasury-owned gold and silver does not include the value of the Treasury-owned gold or
silver because the metals are non-entity assets. The costs of those metals appear as “Custodial Gold and Silver Reserves”
on the Balance Sheet and are valued at the statutory rates of $42.2222 per fine troy ounce (FTO) of gold and
$1.292929292 per FTO of silver.
                                                            33
United States Mint-owned platinum, gold, and silver are valued at the lower of cost or market using a weighted average
inventory methodology.

Custodial Gold and Silver Reserves
Custodial gold and silver reserves consist of both “deep storage” and “working stock” gold and silver.

Deep Storage is defined as that portion of the U.S. Government-owned gold and silver Bullion Reserve which the United
States Mint secures in sealed vaults. Deep storage gold comprises the vast majority of the Bullion Reserve and consists
primarily of gold bars. Deep storage silver is also primarily in bar form.

Working Stock is defined as that portion of the U.S. Government-owned gold and silver Bullion Reserve which the United
States Mint can use as the raw material for minting Congressionally authorized coins. Working stock gold comprises only
about one percent of the Gold Bullion Reserve and consists of bars, blanks, unsold coins, and condemned coins.
Similarly, working stock silver consists of bars, blanks, unsold coins, or condemned coins.

Treasury allows the United States Mint to use some of its gold and silver as working stock. Generally, the United States
Mint will replace the working stock when used in production with purchases of gold and silver on the open market. In
those cases where the gold or silver is not replaced, the United States Mint reimburses Treasury the market value of the
depleted gold or silver.

Supplies
Supplies are items that are not considered inventory and are not a part of the finished product. These items include plant
engineering and maintenance supplies. Supplies are accounted for using the consumption method, in which supplies are
recognized as assets upon acquisition and expensed as they are consumed.

Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances and prepaid expenses at the time of
prepayment, and are expensed when related goods and services are received.

Property, Plant and Equipment
Property, plant and equipment are valued at cost less accumulated depreciation. The United States Mint’s threshold for
capitalizing new property, plant and equipment is $25,000 for single purchases and $500,000 for bulk purchases.
Depreciation is computed on a straight-line basis over the estimated useful lives of the related assets as follows:

        Computer Equipment                                                        3 to 5 years
        ADP Software                                                              2 to 10 years
        Machinery and Equipment                                                   7 to 20 years
        Structures, Facilities and Leasehold Improvements                         10 to 30 years

Major alterations and renovations are capitalized over the shorter of a 20-year period or the remaining useful life of the
asset and depreciated using the straight-line method, while maintenance and repair costs are charged to expense as
incurred. There are no restrictions on the use or convertibility of general property, plant and equipment.

Heritage Assets
Heritage assets are items that are unique because of their historical, cultural, educational, or artistic importance. These
items are collection type assets that are maintained for exhibition and are preserved indefinitely.

Liabilities
Liabilities represent actual and estimated amounts likely to be paid as a result of transactions or events that have already
occurred. All liabilities covered by budgetary resources can be paid from revenues received from the United States Mint
PEF.




                                                            34
Surcharges
Legislation authorizing commemorative programs often requires that the PEF remit a portion of the sales proceeds to
recipient organizations. These amounts are defined as surcharges. A surcharges payable account is established for
surcharges received but not yet paid to the designated recipient organization.

Pursuant to P.L. 104-208, Omnibus Consolidated Appropriations for Fiscal Year 1997 (Act), recipient organizations
cannot receive surcharge payments unless all of the United States Mint’s operating costs of the coin program are fully
recovered. The United States Mint may make interim surcharge payments during a commemorative program if the
recipient organization meets the eligibility criteria in the Act, if the profitability of the program is determinable, and if the
United States Mint is assured it is not at risk of a loss. P.L. 108-15, American 5-Cent Coin Design Continuity Act of 2003,
contains a provision that recipient organizations have two years from the end of the program sales to meet the
requirements of P.L. 104-208. If the requirements are not met within two years, the surcharges collected are to be
deposited in the Treasury as miscellaneous receipts. Additionally, P.L. 108-15 changed the fund raising requirement for
recipient organizations from an amount equal to the maximum surcharges possible based on the maximum mintage to an
amount equal to the surcharges actually collected based on sales.

Earmarked Funds
Pursuant to P.L. 104-52, the United States Mint Public Enterprise Fund (PEF) was established as the sole funding source
for United States Mint activities. The PEF meets the requirements of an earmarked fund as defined in SFFAS 27,
Identifying and Reporting Earmarked Funds.

Unearned Revenues
These are amounts received from customers for which the numismatic products have not been shipped. In the case of
intragovernmental entities, unearned revenue is rental payments received in advance.

Return Policy
If for any reason a customer is dissatisfied, the entire product must be returned within 30 days of receiving the order to
receive a refund or replacement. Shipping charges are not refunded. Further, the United States Mint will not accept partial
returns or issue partial refunds. Historically, the United States Mint receives very few returns, which are immaterial.
Therefore, no reserve for returns is considered necessary.

Shipping and Handling
The United States Mint reports shipping and handling cost as Cost of Goods Sold and not as part of Selling or General and
Administrative expenses. General postage costs for handling administrative functions are reported as part of the United
States Mint’s General and Administrative Expenses.

Annual, Sick and Other Leave
Annual leave is accrued when earned and reduced as leave is taken. The balance in the accrued leave account is
calculated using current pay rates. Sick leave and other types of non-vested leave are charged to operating costs as they
are used.

Accrued Workers Compensation and Other Actuarial Liabilities
The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to cover federal civilian
employees injured on the job, employees who have incurred a work-related injury or occupational disease, and to pay
beneficiaries of employees whose deaths are attributable to job-related injuries or occupational disease. The FECA
program is administered by the United States Department of Labor (DOL), which pays valid claims and subsequently
seeks reimbursement from the United States Mint for these paid claims.

The FECA liability is based on two components. The first component is based on actual claims paid by DOL but not yet
reimbursed by the United States Mint. There is generally a two-to-three-year time period between payment by DOL and
reimbursement to DOL by the United States Mint. The second component is the actuarial liability, which estimates the
liability for future payments as a result of past events. The actuarial liability includes the expected liability for death,
disability, medical, and miscellaneous cost for approved compensation cases.



                                                               35
Protection Costs
Virtually all of the Treasury’s gold and majority of the silver reserves are in the custody of the United States Mint which
is responsible for safeguarding the reserves. These costs are borne by the United States Mint, but are not directly related
to the circulating or numismatic coining operations of the United States Mint. Organizationally, the Protection Strategic
Business Unit, which is responsible for safeguarding the reserves, is a separate line of business from coining operations.

Other Cost and Expenses (Mutilated and Uncurrent)
Other costs and expenses consist primarily of returns of mutilated or uncurrent coins to the United States Mint. Coins that
are chipped, fused, and/or not machine-countable are considered mutilated. The United States Mint reimburses the entity
that sent in the mutilated coins at the face value of these coins if the coins are individually identifiable. If the coins have
melted (as in a fire), the United States Mint reimburses the entity an amount based on the metal content of the melted
mass. Uncurrent coins are worn, but machine-countable, and their genuineness and denomination are still recognizable.
Uncurrent coins are replaced with new coins of the same denomination by the FRB. All mutilated or uncurrent coins
received by the United States Mint are shipped to a fabricator to be recycled in the manufacture of coinage strip.

Tax Exempt Status
As an agency of the Federal Government, the United States Mint is exempt from all income taxes imposed by any
governing body, whether it is a federal, state, commonwealth, local, or foreign government.

Concentrations
The United States Mint purchases the coil and blanks used in the production of its circulating products from three vendors
at competitive market prices.

Reclassifications
Certain fiscal year 2006 amounts have been reclassified to conform to current year presentation.

Transfers to the Treasury General Fund
The United States Mint transfers to the Treasury General Fund amounts in the PEF determined to be in excess of the
amounts required for United States Mint operations and programs. These amounts are generated from the other financing
source (seigniorage) derived from the sale of circulating coins and from net revenues generated from the sale of
numismatic products.

Excess amounts generated from other financing source (seigniorage) are off-budget and deposited in the Treasury General
Fund. Off-budget means that these funds cannot be used to reduce the annual budget deficit. Instead they are used as a
financing source (i.e., they reduce the amount of cash that Treasury has to borrow to pay interest on the national debt).

Excess amounts from revenues generated from the sale of numismatic products less protection costs are on-budget and
deposited in the Treasury General Fund. Unlike seigniorage, the numismatic transfer is available as current operating
revenue or can be used to reduce the annual budget deficit.

Budgetary Resources
The United States Mint receives all of its financing from the public and receives an apportionment from the OMB. This
apportionment is considered a budgetary authority. The United States Mint’s budgetary resources consist of unobligated
balances, transfers, and spending authority from offsetting collections, which is net of amounts that are permanently not
available. “Permanently not available” funds are numismatic transfers to the General Fund.




                                                              36
Note 2 Non-Entity Assets
 Components of Non-entity Assets at September 30 are as follows:
                                                                                       2007                  2006
        Custodial Gold Reserves (Deep Storage)                                  $10,355,539           $10,355,539
        Custodial Silver Reserves (Deep Storage)                                      9,148                 9,148
        Custodial Gold Reserves (Working Stock)                                     117,514               117,514
        Custodial Silver Reserves (Working Stock)                                    11,539                11,539
    Total Non-entity Assets                                                      10,493,740            10,493,740
    Total Entity Assets                                                             998,858               761,885
 Total Assets                                                                   $11,492,598           $11,255,625

Entity assets are assets that the reporting entity has authority to use in its operations. The United States Mint management
has legal authority to use entity assets to meet entity obligations. However, all assets in the possession of the United
States Mint are not entity assets. Treasury allows the United States Mint to use some of its gold and silver as working
stock in the production of coins. The United States Mint must replace the working stock or pay the Treasury General
Fund for the metal used. Thus, Treasury deep storage and working stock gold and silver are all considered non-entity
assets.

Note 3 Fund Balance with Treasury
The United States Mint does not receive appropriated budget authority. The fund balance with Treasury is entirely
available for use to support United States Mint operations. At September 30, 2007 and 2006, the revolving fund balance
included $6.5 million and $8.4 million, respectively, in restricted amounts for possible payment of surcharges to recipient
organizations.

Fund Balance with Treasury at September 30 consists of:
                                                                                      2007                   2006
Revolving Fund                                                                    $255,731               $225,917
   Total Fund Balance with Treasury                                               $255,731               $225,917

Status of Fund Balance with Treasury
   Unobligated Balance                                                             $53,088                $40,549
   Obligated Balance, Not Yet Disbursed                                            202,643                185,368
Total                                                                             $255,731               $225,917




                                                            37
Note 4 Accounts Receivable, Net
Components of accounts receivable are as follows:
                                                                         September 30, 2007

                                                     Gross Receivables        Allowance        Net Receivables
Intragovernmental                                              $5,870                    $0             $5,870
With the Public                                                80,671                  (392)            80,279
    Total Accounts Receivable                                 $86,541                 ($392)           $86,149

                                                                         September 30, 2006

                                                     Gross Receivables        Allowance        Net Receivables
Intragovernmental                                                  $0                    $0                 $0
With the Public                                                28,317                  (197)            28,120
    Total Accounts Receivable                                 $28,317                 ($197)           $28,120

At September 30, 2007, there were approximately $5.9 million in intragovernmental accounts receivable, compared to
none at September 30, 2006. This represents amounts due to the United States Mint relative to a joint numismatic product
with another agency. Receivables with the public at September 30, 2007 primarily consist of $77.1 million in accounts
receivable from metal scrap and webbing sold to fabricators. This compares to $21 million at September 30, 2006. The
remainder of the accounts receivable represents outstanding balances on numismatic orders. The allowance for doubtful
accounts is the balance of the accounts receivable with the public that is past due by 180 days or more. Collection action
continues on these accounts, but an allowance is recorded.

Note 5 Advances and Prepayments
The components of advances and prepayments at September 30 are as follows:
                                                                                     2007                   2006
Intragovernmental                                                                  $4,452                 $3,948
With the Public                                                                     1,805                  1,859
    Total Other Assets                                                             $6,257                 $5,807

Intragovernmental advances and prepayments at September 30, 2007 and 2006, include $2.5 million and $1.9 million,
respectively, that the United States Mint paid the Treasury Working Capital Fund for a variety of centralized services.
Also included in intragovernmental advances are the progress payments (advances) for equipment and building
improvements under construction. The United States Mint is undergoing an entity-wide security upgrade which requires
progress payments be made to other federal agencies for construction and other related services. As of September 30,
2007 and 2006, the balances for such payments were $1.1 million each year. The remaining balance of approximately
$810 thousand represents payments made to the United States Postal Service for product delivery services at September
30, 2007, compared to $900 thousand paid at September 30, 2006.

Advances and Prepayments with the public consist primarily of advances for freight forwarding.

Note 6 Custodial Gold and Silver Reserves
As custodian, the United States Mint is responsible for safeguarding much of the nation’s gold and silver reserves, which
include deep storage and working stock. The asset and the custodial liability to Treasury are reported on the Balance
Sheet at statutory rates. In accordance with 31 U.S.C. § 5117 (b) and 31 U.S.C. § 5116 (b) (2), statutory rates of $42.2222
FTO of gold and $1.292929292 per FTO of silver are used to value the entire custodial reserves held by the United States
Mint.

The market value for gold and silver at September 30 is determined by the London Gold Fixing (PM) rate.


                                                            38
Amounts and values of custodial gold and silver in the custody of the United States Mint at September 30
are as follows:
                                                                                     2007                2006
Gold - Deep Storage:
  Inventories (FTO)                                                          245,262,897          245,262,897
  Market Value ($ per FTO)                                                       $743.00              $599.25
  Market Value ($ in thousands)                                            $182,230,333          $146,973,791
  Statutory Value ($ in thousands)                                           $10,355,539          $10,355,539

Gold - Working Stock:
 Inventories (FTO)                                                             2,783,219             2,783,219
 Market Value ($ per FTO)                                                        $743.00               $599.25
 Market Value ($ in thousands)                                                $2,067,932            $1,667,844
 Statutory Value ($ in thousands)                                               $117,514              $117,514

Silver - Deep Storage:
   Inventories (FTO)                                                           7,075,171             7,075,171
   Market Value ($ per FTO)                                                       $13.65                $11.55
   Market Value ($ in thousands)                                                 $96,576               $81,718
   Statutory Value ($ in thousands)                                               $9,148                $9,148

Silver - Working Stock:
   Inventories (FTO)                                                           8,924,829             8,924,829
   Market Value ($ per FTO)                                                       $13.65                $11.55
   Market Value ($ in thousands)                                               $121,824              $103,082
   Statutory Value ($ in thousands)                                              $11,539               $11,539

    Total Market Value of Custodial Gold and
     Silver Reserves ($ in thousands)                                      $184,516,665          $148,826,435
    Total Statutory Value of Custodial Gold and
     Silver Reserves ($ in thousands)                                       $10,493,740           $10,493,740

Note 7 Inventory and Related Property
The components of inventories and related property at September 30 are summarized below:
                                                                                     2007                  2006
Raw Materials                                                                   $229,440             $113,827
Work-In-Process                                                                   89,878               61,324
Inventory held for current sale                                                   98,754               56,671
Inventory held in reserve for future sale                                              -               21,507
    Total Inventory and Related Property                                        $418,072             $253,329

Raw materials consist of unprocessed materials and byproducts of the manufacturing process and the metal value of
unusable inventory such as scrap or condemned coins that will be recycled into a usable raw material. In addition, the
inventory includes $27.0 million in fair value silver hedge activity of which additional information can be found in note
20. Work-in-process consists of semi-finished materials. Inventory held for current sale is finished goods inventories.
Inventory held in reserve for future sale consists of golden dollar coin coil, all of which was consumed in FY 2007.



                                                           39
Note 8 Property, Plant and Equipment, Net
Components of property, plant and equipment are as follows:
                                                                             September 30, 2007
                                                                                Accumulated     Total Property,
                                                           Asset Cost         Depreciation and    Plant and
                                                                                Amortization    Equipment, Net
Land                                                                $2,529                 $0               $2,529
Structures, Facilities and Leasehold Improvements                  189,274           (116,715)              72,559
Computer Equipment                                                  30,212            (26,485)               3,727
ADP Software                                                        92,290            (86,689)               5,601
Construction-In-Progress                                            21,584                  0               21,584
Machinery and Equipment                                            236,715           (124,701)             112,014

    Total Property, Plant and Equipment, Net                      $572,604          ($354,590)            $218,014

                                                                             September 30, 2006
                                                                                Accumulated     Total Property,
                                                           Asset Cost         Depreciation and    Plant and
                                                                                Amortization    Equipment, Net
Land                                                                $2,529                 $0               $2,529
Structures, Facilities and Leasehold Improvements                  198,181           (116,363)              81,818
Computer Equipment                                                  30,593            (24,287)               6,306
ADP Software                                                        92,188            (81,648)              10,540
Construction-In-Progress                                             8,496                  0                8,496
Machinery and Equipment                                            220,401            (96,696)             123,705

    Total Property, Plant and Equipment, Net                      $552,388          ($318,994)            $233,394

United States Mint facilities used to manufacture circulating coinage and numismatic products are owned by the United
States Mint and located in San Francisco, California; Philadelphia, Pennsylvania; Denver, Colorado; and West Point, New
York. In addition, the United States Mint owns the land and buildings at the United States Bullion Depository at Fort
Knox.

Depreciation and amortization expenses charged to operations during the years ended September 30, 2007 and 2006, were
$37.9 million and $56.7 million, respectively.

Note 9 Heritage Assets
One mission of the United States Mint is to manufacture coins for circulation and numismatic sales. Assets classified as
heritage assets are predominately coins manufactured in prior years that are held for historical archival purposes. These
coins are examples of the various coins produced by the United States Mint over the years. Also included in heritage
assets are selected artifacts (e.g., balances/scales, obsolete manufacturing equipment, examples of daily activity, etc.) that
were used in years past. The United States Mint generally does not place a value on heritage assets, even though some of
the coins and artifacts are priceless. However, the assets are accounted for and controlled for protection and conservation
purposes.




                                                             40
Note 10 Liabilities Not Covered by Budgetary Resources
Components of Liabilities Not Covered by Budgetary Resources at September 30 are as follow:
                                                                                 2007                         2006
Custodial Gold Reserves (Deep Storage)                                  $10,355,539                    $10,355,539
Custodial Silver Reserves (Deep Storage)                                       9,148                         9,148
Working Stock Inventory-Gold                                                117,514                        117,514
Working Stock Inventory-Silver                                                11,539                        11,539
    Total Liabilities Not Covered by Budgetary Resources                $10,493,740                    $10,493,740
    Total Liabilities Covered by Budgetary Resources                                121,352                118,288
    Total Liabilities                                                           $10,615,092            $10,612,028

Liabilities not covered by budgetary resources represent amounts owed in excess of available funds, other amounts or
custodial liabilities to Treasury that are entirely offset by custodial gold and silver reserves held by the United States Mint
on behalf of the Federal Government.

Note 11 Retirement Plans and Other Post-employment Costs (Imputed Financing)
At the end of FY 2007, 326 United States Mint employees participated in the Civil Service Retirement System (CSRS), to
which the United States Mint contributes seven percent of basic pay. On January 1, 1987, the Federal Employees’
Retirement System (FERS) went into effect pursuant to P.L. 99-335. Most employees hired after December 31, 1983 are
automatically covered by FERS and Social Security. Employees hired prior to January 1, 1984 could elect to join FERS
or remain in CSRS.

A primary feature of FERS is that it offers a savings plan to which the United States Mint automatically contributes one
percent of basic pay and matches any employee contributions up to an additional four percent of basic pay. Employees
can contribute any dollar amount or percentage of their basic pay as long as the annual dollar total does not exceed the
Internal Revenue Code limit of $15,500 for FY 2007. Employees participating in FERS are covered by the Federal
Insurance Contribution Act (FICA) for which the United States Mint contributes a matching amount to the Social Security
Administration.

Although the United States Mint contributes a portion for pension benefits and makes the necessary payroll deductions, it
is not responsible for administering either CSRS or FERS. Therefore, the United States Mint does not report CSRS or
FERS assets, accumulated plan benefits or unfunded liabilities, if any, applicable to the United States Mint employees.
Reporting such amounts is the responsibility of the Office of Personnel Management (OPM). OPM has provided the
United States Mint with certain cost factors that estimate the cost of providing the pension benefit to current employees.
The cost factors of 25.0 percent of basic pay for CSRS-covered employees and 12.0 percent of basic pay for FERS-
covered employees were in use for FY 2007. These cost factors remain unchanged from FY 2006.

The amounts that the United States Mint contributed to the retirement plans and social security for the year
ended September 30 are as follows:
                                                                                     2007                    2006
Social Security System                                                            $6,707                  $8,249
Civil Service Retirement System                                                    1,632                   1,515
Federal Employees Retirement System
 (Retirement & Thrift Savings Plan)                                               10,858                  14,883
      Total Retirement Plans and Other Post-employment Cost                      $19,197                 $24,647




                                                              41
The United States Mint is also recognizing its share of the future cost of post-retirement health benefits and life insurance
for employees while they are still working with an offset classified as imputed financing. OPM continues to report the
overall liability of the Federal Government and make direct recipient payments. OPM has also provided certain cost
factors that estimate the true cost of providing the post-retirement benefit to current employees. The cost factors relating
to health benefits are $5,572 and $5,229 per employee enrolled in the Federal Employees Health Benefits Program in FY
2007 and FY 2006, respectively. The cost factor relating to life insurance is two-one hundredths percent (.02%) of basic
pay for employees enrolled in the Federal Employees Group Life Insurance Program for both FY 2007 and FY 2006.

The amount of imputed cost incurred by the United States Mint for the year ended September 30 is as follows
(before the offset for imputed financing):
                                                                                   2007                  2006
Health Benefits                                                                  $8,427                $8,266
Life Insurance                                                                       11                    22
Pension Expense                                                                   2,582                 2,662
    Total Imputed Cost                                                         $11,020               $10,950

Note 12 Lease Commitments
The United States Mint as Lessee:
The United States Mint leases office and warehouse space from commercial vendors and the General Services
Administration (GSA). In addition, the agency leases copier and other office equipment from commercial vendors and
vehicles from GSA. With the exception of the commercial leases on two office buildings in Washington, DC, all leases
are one-year, or one-year with renewable option years. The two building leases have terms of 20- and 10-years,
respectively. Because all of the United States Mint’s leases are considered cancelable, there are no minimum lease
payments due.

The United States Mint as Lessor:
The United States Mint sub-leases office space to several other federal entities in the two leased buildings in Washington,
DC. The leases vary from one-year with option years to multiple year terms. As of September 30, 2007, the United
States Mint sub-leased in excess of 182,000 square feet in two leased buildings. As of September 30, 2007, tenants
include: the Internal Revenue Service, the Treasury Executive Institute, the Bureau of the Public Debt, the U.S. Customs
Service and Border Protection, the Federal Consulting Group, and the U.S. Marshals Service. All of the subleases are
operating leases and subject to annual availability of funding.

Note 13 Contingencies
The United States Mint is subject to legal proceedings and claims which arise in the ordinary course of its business.
Judgments, if any, resulting from pending litigation against the United States Mint generally would be satisfied from the
PEF. Likewise, under the Notification and Federal Employee Antidiscrimination and Retaliation Act of 2002 (No FEAR
Act, P. L. 107-174), settlements and judgments related to acts of discrimination and retaliation for whistleblowing will be
paid from the PEF. In the opinion of management, the ultimate resolution of these actions will not materially affect the
United States Mint’s financial position or the results of its operations.

Asserted and pending legal claims for which loss is reasonably possible were estimated to range from zero to $21.1
million at September 30, 2007. The United States Mint is subject to various other legal proceedings and claims. In
management's opinion, the ultimate resolution of other actions will not materially affect the United States Mint’s financial
position or net cost.

Note 14 Earmarked Funds
P. L. 104-52 provides that “all receipts from United States Mint operations and programs, including the production and
sale of numismatic items, the production and sale of circulating coinage at face value to the FRB, the protection of
government assets, and gifts and bequests of property, real or personal shall be deposited into the PEF and shall be
available to fund its operations without fiscal year limitations.” The PEF meets the requirements of an earmarked fund as
defined in SFFAS 27, Identifying and Reporting Earmarked Funds.


                                                             42
Note 15 Intragovernmental Costs and Earned Revenue
Intragovernmental costs and earned revenue reflect transactions in which both the buyer and seller are federal entities.
Revenue with the public reflects transactions for goods or services with a non-federal entity. However, if a federal entity
purchases goods or services from another federal entity and sells those goods to the public, the revenue would be
classified as “with the public,” but the related expense would be classified as “intragovernmental.” The purpose for this
classification is to enable the Federal Government to prepare consolidated financial statements. The following table
provides earned revenues, gross cost, and net program revenue.

NUMISMATIC PRODUCTION AND SALES                                                        2007                   2006
Cost:
  Intragovernmental:
      Selling, General and Administrative                                           $9,091                $30,870
      Imputed Costs                                                                  2,204                  2,190
  Total Intragovernmental Costs                                                     11,295                 33,060
  Public:
      Cost of Goods Sold                                                           739,506                858,577
      Selling, General and Administrative                                           67,383                 50,054
  Total Public Cost                                                                806,889                908,631
  Gross Cost                                                                       818,184                941,691
Revenue:
  Intragovernmental:
      Rent Revenues                                                                  8,471                  7,852
      Other Intragovernmental Revenues                                                 260                    139
  Total Intragovernmental Revenues                                                   8,731                  7,991
  Public                                                                           862,741              1,019,170
  Total Earned Revenue                                                             871,472              1,027,161

Net Program Revenue                                                               ($53,288)              ($85,470)

NUMISMATIC PRODUCTION AND SALES OF CIRCULATING COINS
Cost:
  Intragovernmental:
      Selling, General and Administrative                                             $474                   $792
      Imputed Costs                                                                      0                      0
  Total Intragovernmental Costs                                                        474                    792
  Public:
      Cost of Goods Sold                                                              5,020                 8,384
      Selling, General and Administrative                                             3,517                 1,283
  Total Public Cost                                                                   8,537                 9,667
  Gross Cost                                                                          9,011                10,459
Revenue:
  Public                                                                              9,011                10,459
  Total Earned Revenue                                                                9,011                10,459

Net Program Revenue                                                                      $0                    $0




                                                             43
CIRCULATING PRODUCTION AND SALES
Cost:
  Intragovernmental:
      Selling, General and Administrative                                          $21,622                $42,227
      Imputed Costs                                                                  8,815                  8,760
  Total Intragovernmental Costs                                                     30,437                 50,987
  Public:
      Selling, General and Administrative                                          604,688                484,324
      Imputed Costs                                                                 71,830                 52,319
      Other Costs and Expenses (Mutilated and Uncurrent)                            15,627                 15,722
  Total Public Cost                                                                692,145                552,365
  Gross Cost                                                                       722,582                603,352
Revenue:
  Public                                                                           722,582                603,352
  Total Earned Revenue                                                             722,582                603,352

Net Program Revenue                                                                        -                      -

Net Revenue Before Protection of Assets                                            ($53,288)             ($85,470)

PROTECTION OF ASSETS
  Public:
    Protection Cost                                                                $37,683                $42,886
  Total Earned Revenue                                                                   -                    (59)

Net Cost of Protection of Assets                                                   $37,683                $42,827

Net Revenue from Operations                                                        ($15,605)             ($42,643)



Note 16 Earned Revenues and Other Financing Source (Seigniorage)
Earned revenues and other financing source (seigniorage), whether from the FRB or from the public, are recognized upon
the shipment of circulating coins and numismatic sales of circulating coins. A portion of the earned revenue from
circulating production and sales displayed on the United States Mint’s Statement of Net Cost is generated by goods and
services provided to the public or to other federal entities. Revenue is limited to the recovery of all costs associated with
the production, administration and distribution of circulating coins (both to the FRB and to the public), and payment by
the United States Mint for mutilated and uncurrent coins. The difference between the face value of coins and cost is other
financing source (seigniorage). A portion of other financing source (seigniorage) is returned to the Treasury General
Fund as an off-budget receipt. The United States Mint transfers to the Treasury General Fund amounts in the PEF
determined to be in excess of amounts required to finance operations and programs. After recovering all costs from
numismatic sales, the remaining profit returned to the Treasury General Fund as an on-budget receipt.




                                                             44
The components of circulating coins and numismatic sales of circulating coins for the year ended
September 30 are as follows:
                                                                                     2007                 2006
Revenue-FRB                                                                     $722,582              $603,352
Other Financing Source (Seigniorage)-FRB                                       1,005,194               668,506
Total Circulating Coins                                                      $1,727,776             $1,271,858

Revenue-with the public                                                           $9,011               $10,459
Other Financing Source (Seigniorage)-with the public                              27,090                13,974
Total Numismatic Sales of Circulating Coins                                      $36,101               $24,433

Note 17 Apportionment Categories of Obligations Incurred
The United States Mint receives apportionments of its resources from OMB. An apportionment is a plan, approved by the
OMB, to spend resources provided by law. All United States Mint obligations are classified as reimbursable, as they are
financed by offsetting collections received in return for goods and services provided. OMB usually uses one of two
categories to distribute budgetary resources. Category A apportionments distribute budgetary resources by fiscal quarters.
Category B apportionments typically distribute budgetary resources by activities, projects, objects or a combination of
these categories. The United States Mint has only category B apportionments.

Details of Obligations Incurred as of September 30 are as follows:
(in thousands)
                                                                                     2007                  2006
Reimbursable:
  Category B
      Total Operating Expenses                                                $1,809,473            $1,618,526
      Numismatic Capital                                                           9,245                11,162
      Circulating and Protection Capital                                          12,337                 9,050
Total Apportionment Categories of Obligations Incurred                        $1,831,055            $1,638,738

Note 18 Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the United
States Government
Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other Financing Sources and
Concepts for Reconciling Budgetary and Financial Accounting, requires an explanation of material differences between
budgetary resources available, the status of those resources, and outlays as presented in the Statement of Budgetary
Resources to the related actual balances published in the Budget of the United States Government (President’s Budget).
The President’s Budget with actual numbers for fiscal year 2007 is expected to be published in February 2008 and made
available through OMB. The following chart displays the differences between the Statement of Budgetary Resources and
the actual FY 2006 balances included in the FY 2008 President’s Budget. The explanation for the differences is two-fold.
First, there is a timing difference between the preparation of the Statement of Budgetary Resources and the President’s
Budget. Items that may have been incorporated into the final Statement of Budgetary Resources would not appear in the
President’s Budget, which is based on the final TIER submission to Treasury. Secondly, as part of the conversion to a
budgetary accounting system from a non-budgetary system, the United States Mint and the Administrative Resource
Center made necessary corrections to budgetary account balances.




                                                           45
                                                                                    September 30, 2006

                                                                           Statement of
United States Mint Public Enterprise Fund                               Budgetary Resources President's Budget
Total Budgetary Resources                                                       $1,679,287         $1,635,240

Status of Budgetary Resources:
   Obligations Incurred                                                           1,638,738              1,527,301
   Unobligated Balances-available                                                    40,549                107,939
Total Status of Budgetary Resources                                              $1,679,287             $1,635,240

Net Outlays                                                                        ($30,530)              ($30,530)

Note 19 Legal Arrangements Affecting Use of Unobligated Balances
The United States Mint PEF establishes that all receipts from United States Mint operations and programs, including the
production and sale of numismatic items, the production and sale of circulating coinage, the protection of Government
assets, and gifts and bequests of property, real or personal, shall be deposited into the United States Mint PEF and shall be
available without fiscal year limitations. Any amount that is in excess of the amount required by the United States Mint to
cover obligations shall be transferred to the Treasury for deposit as miscellaneous receipts. At September 30, 2007 and
2006, the United States Mint transferred excess receipts to the Treasury General Fund of $825 million and $750 million,
respectively.

Note 20 Hedging Program
The United States Mint has engaged in a hedging program since FY 2006 to avoid fluctuation in silver costs as a result of
the changes in market prices. The United States Mint purchases silver in large quantities and sells an interest in that silver
to a trading partner, while maintaining physical custody and title of the silver. Sales of silver to the trading partner are
made at the same spot price that the United States Mint paid to obtain the silver on the open market. The partner’s interest
in United States Mint silver is reduced as finished silver coins are sold to authorized purchasers (AP’s). Repurchases of
the trading partner’s interest in the silver occurs upon sale of coins by the United States Mint. Repurchases are made on
the same day as sales, in the same quantity sold, and using the same spot price as was used for the sale to the AP. Each
sale to and from the purchaser carries a small transaction fee, the selling and buying fees net to a cost of one half cent per
ounce. To date, the United States Mint has incurred $43 thousand in hedging fees causing minimal impact on the
statement of net cost.

The $27.0 million in hedging activity included in inventory represents the value of the silver sold to the trading partner
and not yet sold by the United States Mint, and therefore not repurchased from the trading partner. In FY 2007, the
United States Mint recorded an unrealized gain from hedging activity of $1.6 million.




                                                             46
Note 21 Reconciliation of Net Cost of Operations to Budget

                                                                                   For The Years Ended September 30,
                                                                                        2007               2006
Resources Used to Finance Activities:
  Budgetary Resources Obligated
     Obligations Incurred                                                               $1,831,055        $1,638,738
     Less: Spending Authority from Offsetting Collections and Recoveries                 1,886,594         1,650,417
Net Obligations                                                                            (55,539)          (11,679)

Other Resources
  Transfers to the Treasury General Fund On-Budget                                         (43,000)          (84,000)
  Transfers to the Treasury General Fund Off-Budget                                       (782,000)         (666,000)
  Imputed Financing from Costs Absorbed by Others                                           11,020            10,950
  Other Financing Sources (Seigniorage)                                                  1,032,284           682,480
Net Other Resources Used to Finance Activities                                             218,304           (56,570)
Total Resources Used to Finance Activities                                                 162,765           (68,249)

Resources Used to Finance Items Not Part of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods, Services and Benefits
    Ordered but Not Yet Provided                                                            18,246            13,456
  Resources that Finance the Acquisition of Assets or Liquidation of Liabilities           189,814            99,315
  Other                                                                                    (43,000)          (84,000)

Total Resources Used to Finance Items Not Part of the Net Cost of Operations               165,060            28,771
Total Resources Used to Finance the Net Cost of Operations                                  (2,295)          (97,020)

Components Requiring or Generating Resources in Future Periods
  Increase in Exchange Revenue Receivable from the Public                                  (52,159)          (13,219)
Total Components of Net Cost of Operations that will Require or
  Generate Resources in Future Periods                                                     (52,159)          (13,219)

Components not Requiring or Generating Resources in the Current Period:
  Depreciation and Amortization                                                             37,879            56,666
  Revaluation of Assets                                                                     (1,437)           11,068
  Other                                                                                      2,407              (138)
Total Components of Net Revenue from Operations that will not require
  or Generate Resources                                                                     38,849            67,596
Total Components of Net Revenue from Operations that will not require
 or Generate Resources in the Current Period                                               (13,310)           54,377
Net Revenue from Operations                                                               ($15,605)         ($42,643)




                                                             47
REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)




                      48
                                   DEPARTMENT OF THE TREASURY
                                       UNITED STATES MINT
                        REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)
                              FOR THE YEAR ENDED SEPTEMBER 30, 2007


Introduction This section provides the Required Supplemental Information as prescribed by the Office of Management
and Budget (OMB) Circular A-136, “Financial Reporting Requirements.”

Heritage Assets
The United States Mint is steward of a large, unique, and diversified body of heritage assets that are both collection and
non-collection in nature. These items include a variety of rare and semi precious coin collections and historical artifacts,
and are held at various United State Mint locations. Some of these items are placed in locked vaults within the United
States Mint where access is limited to only special authorized personnel. Other items are on full display to the public
requiring little if any authorization to view. Items on display are accounted for and controlled for protection and
conservation purposes.

The United States Mint has created two categories to account for the large and varied stock of heritage assets. These
categories include coin collections and historical artifacts. The table below summarizes the Unites States Mint’s
collection and non-collection type heritage assets balance as of September 30, 2007. Overall, the United States Mint
heritage assets, both collection and non-collection type, are in good condition.

                                                Quantity of Items
                                               Held September 30,
 Coin Collections                                     2007
 Non Precious Metal Coin Collection                     1
 Silver Coin Collection                                 1
 Gold And Extremely Rare Coin
 Collection                                              1
 Total                                                   3



                                                Quantity of Items
                                               Held September 30,
 Historical Artifacts                                 2007
 Furniture Collections (includes antiques)              2
 Equipment Collection                                   1
 Total                                                  3




                                                             49
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Internal Control


Inspector General 

United States Department of the Treasury


Director 

United States Mint: 



We have audited the balance sheets of the United States Mint as of September 30, 2007 and 2006
and the related statements of net cost, changes in net position, and combined statements of
budgetary resources (hereinafter referred to as “financial statements”) for the years then ended,
and have issued our report thereon dated December 4, 2007. As disclosed in Note 1 to the
financial statements, the United States Mint changed its method of reporting the reconciliation of
budgetary resources obligated to the net cost of operations in fiscal year 2007.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to
obtain reasonable assurance about whether the financial statements are free of material
misstatement.

INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of the United States Mint is responsible for establishing and maintaining
effective internal control. In planning and performing our fiscal year 2007 audit, we considered
the United States Mint’s internal control over financial reporting by obtaining an understanding
of the design effectiveness of the United States Mint’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our
opinion on the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards and OMB
Bulletin No. 07-04. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our
audit was not to express an opinion on the effectiveness of the United States Mint’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness
of the United States Mint’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose



                                                           50 

                                   KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                   a member of KPMG International, a Swiss cooperative.
described in the preceding paragraph of this section and would not necessarily identify all
deficiencies in the internal control over financial reporting that might be significant deficiencies
or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the United States Mint’s ability to initiate,
authorize, record, process, or report financial data reliably in accordance with U.S. generally
accepted accounting principles such that there is more than a remote likelihood that a
misstatement of the United States Mint’s financial statements that is more than inconsequential
will not be prevented or detected by the United States Mint’s internal control over financial
reporting. A material weakness is a significant deficiency, or combination of significant
deficiencies, that results in more than a remote likelihood that a material misstatement of the
financial statements will not be prevented or detected by the United States Mint’s internal control.

In our fiscal year 2007 audit, we consider the deficiency, described in Exhibit I, to be a
significant deficiency in internal control over financial reporting. We believe that the significant
deficiency presented in Exhibit I is a material weakness. Exhibit II presents the status of prior
year reportable conditions.

The United States Mint’s response to the findings identified in our audit is presented in Exhibit
III. We did not audit the United States Mint’s response and, accordingly, we express no opinion
on it.

INTERNAL CONTROL OVER PERFORMANCE MEASURES

As required by OMB Bulletin No. 07-04 in our fiscal year 2007 audit, with respect to internal
control related to performance measures determined by management to be key and reported in
Management’s Discussion and Analysis, we obtained an understanding of the design of internal
controls relating to the existence and completeness assertions and determined whether these
internal controls had been placed in operation. We limited our testing to those controls necessary
to report deficiencies in the design of internal control over key performance measures in
accordance with OMB Bulletin 07-04. However, our procedures were not designed to provide an
opinion on internal control over reported performance measures and, accordingly, we do not
provide an opinion thereon. In our fiscal year 2007 audit, we noted no deficiencies involving the
design of the internal control over the existence and completeness assertions related to key
performance measures that we consider to be material weaknesses as defined above.

This report is intended solely for the information and use of the United States Mint’s
management, the Department of the Treasury’s Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




December 4, 2007




                                                51 

                                                                                                   Exhibit I
                                     THE UNITED STATES MINT
                                            Material Weakness 


                                            September 30, 2007 



Improvement needed in Internal Controls related to Financial Accounting and Reporting

The United States Mint encountered a number of challenges resulting from the fiscal year 2007 conversion
to Oracle Financial Systems (Oracle) utilized by the Bureau of the Public Debt’s (BPD) Administrative
Resource Center (ARC), the United States Mint’s financial service provider.

Although the United States Mint conducted pre-conversion testing, it encountered implementation issues
related to converting data from its legacy accounting system and developing new accounting processes to
effectively implement the new system. Key reconciliations, and reports needed for management, were not
available following the conversion to Oracle for approximately the first half of the fiscal year. In addition
the financial reporting process lacked sufficient policies, procedures and internal controls to ensure
accurate and timely financial reporting throughout the year. Specifically we noted:

        •	 Reconciliations were not performed in inventory and financial reporting;

        •	 Lack of management oversight related to human resource payroll reconciliations and journal
           entry approval;

        •	 Policies and procedures were not in place or were not updated accurately to reflect the new
           controls and management oversight needed related to the conversion to ARC for inventory
           and budgetary resources; and

        •	 Inaccurate accounting information in the opening balances for budgetary accounts,
           manufacturing, as well as plant, property, and equipment.

The United States Mint implemented a corrective action plan in the third quarter of the fiscal year, and as
of fiscal year-end all weakness were corrected. However, for a significant portion of the fiscal year, the
Mint did not have adequately designed controls to prevent or detect a material misstatement in the
financial statements.

Also during the United States Mint’s physical inventory, we noted significant adjustments were made to
the subsidiary ledger because physical counts did not agree with the subsidiary general ledger. Included in
these adjustments, were metal by-products of the manufacturing process that were located in the facilities;
however, they were not in the planned physical inventory counts nor accounted for on the subsidiary
ledger. We noted these adjustments were made because the United States Mint was not utilizing the new
financial system appropriately. Furthermore, a significant reclassification was necessary between work-
in-process and raw material due to system conversion issues.

OMB Circular A-123, Managements Responsibility for Internal Control, defines management’s
responsibility and provides guidance to Federal managers on improving the accountability and
effectiveness of Federal programs and operations by establishing, assessing, correcting, and reporting on
internal control. In addition the circular states that “transactions should be promptly recorded, properly
classified, and accounted for in order to prepare timely accounts and reliable financial and other reports.”

GAO Standards for Internal Control in the Federal Government holds that transactions should be


                                                     52

                                                                                                 Exhibit I
                                    THE UNITED STATES MINT
                                           Material Weakness 


                                           September 30, 2007 



properly authorized, documented, and recorded accurately and timely.

Recommendations: We recommend that the United States Mint:

1.	 Develop controls and processes related to the recording and tracking of inventory movements in the
    financial statement system to ensure the subsidiary ledger agrees to the inventory physical located at
    the facilities.

2.	 Establish a policy and procedure for the accounting treatment of metal by-product located at the
    United States Mint that is not in the subsidiary ledger.




                                                   53

                                                                                               Exhibit II

                                   THE UNITED STATES MINT
                                   Prior Year Reportable Conditions

                                          September 30, 2007

                                                                                            Status as of
 Prior Year                                   Prior Year                                    September
 Condition                                 Recommendation
                                                                                             30, 2007

Improvement is needed in Financial Accounting and Reporting

Assignment of   Recommendation #1: Evaluate the existing financial management                 Closed
Personnel       organizational structure and make appropriate changes to ensure that the
Resources       Office of Corporate Accounting is provided with sufficient staff
                resources with the requisite skills and abilities to maintain the Mint’s
                accounting records and prepare timely financial reports.
Financial       Recommendation #2: Establish procedures for performing periodic               Closed
Management      reviews to assess the sufficiency of financial policies and procedures
Oversight       and consistencies between production facilities.
                Recommendation #3: Develop procedures for providing oversight and
                guidance to the Mint production facilities and all departments within the
                Mint that provide key financial information.
                Recommendation #4: Implement formal policies and procedures that
                require all accounting records to be signed-off by both the preparer and
                a management level reviewer.
Property        Recommendation #5: Implement adequate security and physical                   Closed
Plant and       control procedures to ensure that all assets are adequately safeguarded
Equipment       and properly accounted for.
Management
                Recommendation #6: Strengthen the policies and procedures over
                purchasing assets to ensure that all assets are recorded in the Asset
                Management Module of PeopleSoft timely, when received at the
                relevant locations.
                Recommendation #7: Implement policies and procedures requiring the
                program managers to communicate information regarding the status of
                the CIP projects to the Office of Corporate Accounting at or near each
                period end, and perform timely follow-up procedures to ensure that the
                Mint’s financial statements reflect the most current project status.
                Recommendation #8: Establish an internal review process that requires
                a supervisor to systematically review the transactions recorded in the
                Asset Management module of PeopleSoft timely.
Budgetary                                                                                     Closed
                Recommendation #9: Develop Mint-wide policies and procedures for
Resources
                management to perform adequate review of all obligations. The policies
Accounting
                and procedures should provide for central management control and
                review, to ensure adequate support for recorded amounts exists and that
                sufficient consideration is given to the legitimacy of unliquidated

                                                   54

                                                                                      Exhibit II

                               THE UNITED STATES MINT
                               Prior Year Reportable Conditions

                                     September 30, 2007

                                                                                   Status as of
Prior Year                               Prior Year                                September
Condition                             Recommendation
                                                                                    30, 2007

             obligation amounts.

             Recommendation #10: The Oracle general ledger system fully uses the
             United States Government Standard General Ledger and will support
             accounting for the budgetary effects of transactions to ensure
             compliance with FFMIA.

             Recommendation #11: The Oracle system records obligations as
             incurred and manages funds control at the transaction level.




                                             55

     Exhibit III




56
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036




              Independent Auditors’ Report on Compliance and Other Matters


Inspector General 

United States Department of the Treasury


Director 

United States Mint: 


We have audited the balance sheets of the United States Mint as of September 30, 2007 and 2006,
and the related statements of net cost, changes in net position, and combined statements of
budgetary resources (hereinafter referred to as “ financial statements”) for the years then ended,
and have issued our report thereon dated December 4, 2007. As disclosed in Note 1 to the
financial statements, the United States Mint changed its method of reporting the reconciliation of
budgetary resources obligated to the net cost of operations in fiscal year 2007.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material
misstatement.

The management of the United States Mint is responsible for complying with laws, regulations,
and contracts applicable to the United States Mint. As part of obtaining reasonable assurance
about whether the United States Mint’s financial statements are free of material misstatement, we
performed tests of the United States Mint’s compliance with certain provisions of laws,
regulations, and contracts noncompliance with which could have a direct and material effect on
the determination of the financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04, including certain provisions referred to in the
Federal Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws, regulations, and contracts applicable to the United States Mint. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other
matters that are required to be reported herein under Government Auditing Standards or OMB
Bulletin No. 07-04.




                                                               57
                               KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                               a member of KPMG International, a Swiss cooperative.
Under OMB Bulletin No. 07-04 and FFMIA, we are required to report whether the United States
Mint’s financial management systems substantially comply with (1) Federal financial
management systems requirements, (2) applicable Federal accounting standards, and (3) the
United States Government Standard General Ledger at the transaction level. To meet this
requirement, we performed tests of compliance with FFMIA Section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which the United States Mint’s
financial management systems did not substantially comply with the three requirements discussed
in the preceding paragraph.

This report is intended solely for the information and use of the United States Mint’s
management, the Department of the Treasury’s Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




December 4, 2007




                                              58 

